<html>
<title> - [H.A.S.C. No. 111-132]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 111-132]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON
 
                     BUDGET REQUESTS FROM THE U.S.
                     EUROPEAN COMMAND, U.S. AFRICA
                        COMMAND, AND U.S. JOINT
                             FORCES COMMAND

                               __________

                              HEARING HELD

                             MARCH 10, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
58-227                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>  
                                     

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 10, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Requests from the U.S. European 
  Command, U.S. Africa Command, and U.S. Joint Forces Command....     1

Appendix:

Wednesday, March 10, 2010........................................    39
                              ----------                              

                       WEDNESDAY, MARCH 10, 2010
 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
  FROM THE U.S. EUROPEAN COMMAND, U.S. AFRICA COMMAND, AND U.S. JOINT 
                             FORCES COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Mattis, Gen. James N., USMC, Commander, U.S. Joint Forces Command     8
Stavridis, Adm. James G., USN, Commander, U.S. European Command..     5
Ward, Gen. William E. ``Kip,'' USA, Commander, U.S. Africa 
  Command........................................................     6

                                APPENDIX

Prepared Statements:

    Mattis, Gen. James N.........................................   157
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Stavridis, Adm. James G......................................    46
    Ward, Gen. William E. ``Kip''................................   107

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Johnson..................................................   181
    Mr. Sestak...................................................   181

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
  FROM THE U.S. EUROPEAN COMMAND, U.S. AFRICA COMMAND, AND U.S. JOINT 
                             FORCES COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 10, 2010.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. I want to welcome our witnesses today. And 
this is, as you know, the posture hearing for the fiscal year 
2011 budget for the U.S. European Command (EUCOM), U.S. African 
Command (AFRICOM), and the U.S. Joint Forces Command (JFCOM).
    Before I introduce our witnesses, I wish to make note that 
our staff director, Erin Conaton, will be witnessing her last 
hearing in the role of staff director. To say that she has done 
yeoman's work is an understatement. I am immensely proud of the 
leadership--she supported--her ability, her tireless energy, 
her good judgment, and in steering this committee so very, very 
well.
    And we wish her well as the new Under Secretary of the Air 
Force, and she will be joining that team in just a few days. 
But this is her very last hearing.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. I want to second 
everything that you have said, plus I would like to add that, 
you know, I am fairly new at this job, and Erin has made it so 
enjoyable. You know, as we went through the conference the day 
after I was named the ranking member, we had our markup. And so 
it was like drinking out of a fire hose for the next several 
months.
    And we got down to the final four. Many of those meetings 
that we held--and I want to congratulate you, Mr. Chairman, 
because for what else is happening in this Congress, this 
committee has been bipartisan due to your leadership. And 
everything that we did, Erin made it bipartisan.
    She made sure that we know everything that is going on and 
all of the decisions. We didn't agree on everything. We 
probably agreed on more than we did with the Senate. But, I 
mean, through the process, she has been a true professional and 
done an outstanding job. And she will be missed, but the Air 
Force is gaining a great new member.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. McKeon, thank you very much.
    Erin, we wish you well.
    [Applause.]
    The Chairman. We have announced her replacement, Paul 
Arcangeli, standing by the door by Erin, and as the deputy, 
Debra Wada, who all of us know so well through the years. 
Welcome aboard.
    [Applause.]
    The Chairman. Appearing before us today, Admiral James G. 
Stavridis, United States Navy; General William E. ``Kip'' Ward, 
United States Army; General James N. Mattis, United States 
Marine Corps. We appreciate your being with us today, and we 
welcome you.
    It has been the practice over several years, a very 
compressed hearing calendar causes us to consider your 
testimony as a group but, really, each of you deserve to have--
because of your position as commander of your important 
commands--deserve your own separate hearing, but we were unable 
to do that this year. And I hope you understand that.
    First, European Command. Admiral, Europe remains critical 
to our national security, and we should remember that. Long 
trans-Atlantic ties have endured difficult times over the 
years. Challenges in those relationships present themselves 
today. We tend to think of our European friends and allies 
solely as partners for operations outside of that theater, but 
we should not so quickly put aside what the Russian incursion 
into Georgia two summers ago reminded us; real regional 
challenges do exist in Europe.
    Many of our allies rely on us to guarantee security and 
stability in Europe. One shining example of our commitment to 
security is in the Balkans where, after nearly 15 years, the 
American presence in Bosnia Herzegovina is down to a handful, 
and the North Atlantic Treaty Organization (NATO) mission in 
Kosovo has brought us genuine stability.
    We are all watching the NATO mission in Afghanistan 
closely. Many of our allies are making considerable 
contributions to that effort and, sadly, suffering casualties 
to prove it. Somehow, however, are not able to perform all 
missions where this is a matter of concern regarding capability 
and not national will.
    I encourage you to continue to find ways to build their 
capacity and would like to hear your ideas along those lines.
    Next, General, U.S. Africa Command. After a beginning of 
fits and starts, it looks to me like AFRICOM has gotten its 
feet underneath it. You worked very hard to bring together 
parts of three other combatant commands, and until President 
Obama laid out a clear vision of United States national policy 
toward Africa last July, you had been operating under somewhat 
vague policy guidance.
    Now, it seems like things are finally coming together in 
your shop, none too soon. From Al Qaeda in East Africa to Al 
Qaeda in the Islamic Maghreb and Al Shabab in Somalia, we see 
that violent extremism on the continent is on the rise. AFRICOM 
has done some impressive things while working with its African 
partners to promote African stability and security. And that 
is, of course, a worthy effort.
    The effect the United States Navy and its African 
partnership station has had on developing African maritime 
security is a great example. So we feel like we should pat our 
Navy on the back for having done so well.
    I have thought for some time, General Ward, that when it 
comes to your command's activities that are not clearly 
counterterrorism, your challenge has been to describe them in 
terms of a clear linkage to U.S. national security interests. I 
hope you will emphasize that point in your testimony today, 
sir.
    Last but of course not least, United States Joint Forces 
Command, JFCOM, perhaps one of the most opaque commands for an 
outsider because so much of what you do, General Mattis, is 
conceptual. Sometimes, it feels like one has to be an 
experienced practitioner of the art of war to understand it. 
Still, that intellectual space is exact the where the next war 
is going to be won before we even know who we will be fighting 
against.
    At last month's hearing in the 2010 Quadrennial Defense 
Review (QDR), I observed that the QDR did not pay enough 
attention to the operational needs of our money boot warriors. 
The wars in Iraq and Afghanistan made it very clear that the 
superiority of individuals in small units engaged in close 
combat is essential if the United States is going to win these 
sorts of wars.
    These are our most effective weapons, and I understand the 
Joint Forces Command is making great strides in developing 
innovative tools to make sure our small units are fully and 
realistically trained. I think we are a ground-combat team. It 
is the same sort of preparation in terms of stimulus and other 
training tools that we give our pilots, for instance, and I 
hope, General Mattis, you will talk about that today.
    We welcome you. We look forward to your testimony. This 
should be a very, very interesting hearing.
    The ranking member and the gentleman from California, my 
friend, Buck McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Today, we begin our series of posture hearings with the 
commanders of U.S. EUCOM, U.S. AFRICOM, and U.S. Joint Forces 
Command. I would like to welcome Admiral Stavridis, General 
Ward, and General Mattis and thank each of you for your 
leadership and your service to our Nation as well as all of 
those people that are here with you in uniform. Thank you.
    Your appearance also reminds us of our extraordinary 
military men and women serving around the globe to protect 
American national interests. Please pass along my sincere 
gratitude to all of our service members and their families 
serving under your command.
    Admiral Stavridis, unfortunately, we do not have time to 
cover all of the challenges facing EUCOM and NATO, but I would 
like to highlight a few areas that I hope that you will address 
today.
    The first is the administration's Russia reset policy. 
While your written statement correctly highlights the 
complexities of engaging with Russia, we need to ensure that 
the reset policy does not risk the viability of the security 
architecture that has kept the European continent peaceful for 
nearly 60 years.
    In other words, reset needs to be balanced with U.S. 
reassurance to our allies. This is why many of us support a 
NATO-first policy which would make clear to our NATO allies 
that U.S. bilateral engagement with Russia will not foster 
collected insecurity amongst our allies.
    I am pleased that your prepared statement addresses the 
need to strengthen trans-Atlantic security, assure allies, and 
dissuade adversaries. Important to assuring allies is a U.S. 
force presence in Europe. Your prepared statement states that 
force posture is key to achieving our national objective in 
EUCOM's area of responsibility and offers context by 
highlighting how U.S. personnel in Europe has decreased from 
300,000 during the Cold War to less than 80,000 today.
    While some have called for even less force presence, you 
state that--and I quote--``without four brigade combat teams in 
Europe, deterrence and reassurance are at increased risk. Given 
Russia's military modernization efforts, its behavior in 
Georgia, and its revised nuclear doctrine, this is not a risk 
we can afford to assume.''
    A key development in your area of responsibility (AOR) 
since last year is missile defense. While I understand the 
missile defense costs and capability are not EUCOM issues, 
addressing our allies' concerns about the Iranian threat is a 
major EUCOM equity. With respect to defense of Israel, EUCOM 
should build on its October 2009 Juniper Cobra exercise which 
successfully exercised the active missile-defense capabilities 
of both U.S. and Israeli Armed Forces. I do have concerns about 
the administration's phased adaptive approach, however.
    In my view, it is critical that the administration deliver 
on its promise on missile defense in Europe. We have learned 
little about this plan since the September 2009 announcement. 
Does EUCOM have a detailed plan in place to execute this 
policy?
    Finally, absent from your comprehensive testimony is 
discussion of NATO as a nuclear alliance. While you highlight 
that Article 5--and collective defense is a cornerstone of the 
alliance--you do not address whether the U.S. should continue 
to have a nuclear presence in Europe.
    In my view, our forward-deployed nuclear forces strengthen 
trans-Atlantic security and are critical to the credibility of 
our collective defense commitment. I take to heart the view 
that our nuclear forces work for us every day by providing 
assurance to allies and deterrence to our adversaries.
    Mr. Chairman, I ask that my entire statement be included 
for the record where I address policies facing the other 
combatant command testifying today.
    Once again, I thank you, gentlemen, for being here, and I 
look forward to your testimonies.
    The Chairman. Thank the gentleman, and the statement will 
be spread upon the record without objection.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]
    The Chairman. Admiral Stavridis, welcome.

  STATEMENT OF ADM. JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
                        EUROPEAN COMMAND

    Admiral Stavridis. Good morning, Mr. Chairman, Ranking 
Member, members of the committee. Thank you so much for taking 
time to have a dialogue with each of us and to hear our views 
and to learn of yours.
    I want to also commend Erin Conaton who has been a terrific 
liaison and, sir, has represented this committee in an 
extraordinary fashion. I was also pleased to see you use a 
nautical metaphor to commend her doing ``yeoman's work'' which 
we like that expression in the Navy. And she has been a good 
friend to the Navy and, indeed, to all the services and I 
believe will be an extraordinary addition to the civilian 
leadership in the Pentagon.
    I am very blessed to be here today with two outstanding 
shipmates who are on my flanks and are both good friends. And 
as I mentioned yesterday, I feel very safe in the company of 
two combat-serious infantry-type officers from the Army and the 
Marine Corps.
    Mr. Chairman, I will be extremely brief. I want to, as 
always, thank this committee for all of the support to all of 
our men and women. Your visits matter. Your support through the 
committee matters deeply. It is the fuel in the machine, and we 
thank you for it. And we thank you for your informed engagement 
with us that helps guide us.
    I will talk--and I look forward to taking your questions on 
Afghanistan. My role there, of course, is in my Supreme Allied 
Commander Europe (SACEUR) NATO hat. I am cautiously optimistic 
about progress in Afghanistan. Secretary Gates is down south in 
the Helmand yesterday and said he sees bits of pieces of 
progress. I think we have a long way to go and a tough year 
ahead, but I am encouraged by what I have seen over the course 
of the last year in terms of strategy, resources, and 
leadership in Afghanistan.
    The Balkans, Mr. Chairman, thank you for mentioning the 
Balkans. It really is a success story. I look forward to a 
continued reduction of our forces there. The key in the Balkans 
is to ensure we don't fall backward.
    As you pointed out, 10 years ago, we had almost 30,000 
troops all over the Balkans. Today, we have less than 1,200. 
Our allies are there. The allies have almost 15,000 troops 
there. So they are pulling hard, and I think, overall together, 
the Balkans are an example of trans-Atlantic security working 
at its best.
    A couple of other issues that I think are key I would like 
to touch on at some point today are cyber. I am concerned about 
that both in the context of U.S. European Command and, also, on 
my NATO side. I am very concerned about Iran.
    Thank you, Ranking Member McKeon, for mentioning the 
missile defense threat. I think that Iran is what poses that 
threat, and we need to be responsive to that.
    And Russia, I take your point entirely, Ranking Member 
McKeon, that it is a balance between these polls of reset and 
reassurance, as you correctly point out.
    In terms of how we are approaching business as U.S. 
European Command, as I did at U.S. Southern Command, we are 
working very hard to have an international, an interagency 
orientation in the work we do. We are trying to have effective 
strategic communications and explain what we are doing. And 
above all, we depend on the brave men and women, almost 80,000 
of them in Europe today, who are defending our Nation forward.
    I thank you for your time today, and I look forward to your 
questions, sir.
    [The prepared statement of Admiral Stavridis can be found 
in the Appendix on page 46.]
    The Chairman. Admiral, thank you very much.
    General Ward, please.

STATEMENT OF GEN. WILLIAM E. ``KIP'' WARD, USA, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Ward. Chairman Skelton, Ranking Member McKeon, 
thank you for this opportunity to be here, distinguished 
members of the committee. We appreciate all that you do in 
support of our command as we work to pursue our interests in 
the continent of Africa.
    I would also be remiss if I didn't acknowledge Erin. She 
has been such an instrumental and supportive part of all that 
we have done these past now two and a half years in standing up 
our Nation's newest combatant command.
    And, Erin, thank you for your support and how you were able 
to help us along in so many ways and wish you all the best in 
your new assignment. And we look forward to working with, also, 
with Paul and Debra as they continue to work with us as we move 
forward for our Nation.
    I am honored to appear here today with my friends and 
distinguished colleagues, Admiral Jim Stavridis and General Jim 
Mattis.
    What we do in AFRICOM to protect American lives and promote 
interests is our mission, and we do that by supporting security 
and stability programs in Africa and its island nations. We 
concentrate our strategy and our efforts on helping African 
states build their capacity to field professional and capable 
militaries that respect human rights, adhere to the rule of 
law, promote professionally dedicated militaries and, also, 
effectively contribute to stability in Africa.
    We are assisting our African partners in building capacity 
to counter transnational threats from violent extremist 
organizations, to stem elicit trafficking, to support 
peacekeeping operations, and to address the consequences of 
human disasters, whether they be manmade or natural.
    Supporting the development of professional and capable 
militaries contributes to increased security and stability in 
Africa, allowing African nations and regional organizations to 
promote good governance, expand development, and promote their 
common defense to better serve their people and to help protect 
the lives of Americans, be they abroad or here at home.
    The Africa partnership station--and, Chairman, thank you 
for mentioning that--which includes our European and African 
partners as member of the staff, is now on its fifth deployment 
and has expanded from the initial focus in the Gulf of Guinea 
to other African coastal regions as well.
    Africa Endeavor, a continental-wide command-and-control 
exercise, has seen a steady increase in participation with over 
30 nations projected to participate this year. Exercise 
National Fire was acclaimed by all as a tremendously successful 
exercise bringing together five Eastern African nations to 
address their response in a humanitarian assistance and 
disaster relief scenario.
    Mr. Chairman, in my written statement, I highlight these 
and other programs and activities all designed to help build 
our partner security capacity, and I ask that it be made a part 
of this record.
    These programs reflect the willingness of our partners to 
work with us and with each other to address common threats that 
have the ability to impact us here at home and reflect that our 
programs and our activities are, indeed, producing tangible 
results. And I will provide some examples of that later on.
    My focus is on activities, programs, and communications 
that support our national interests and also reinforce the 
success that we have established in ways that will assure 
progress in the long term for our African partners to be more 
capable of providing for their own security and, thus, helping 
to guarantee our security here as well.
    We closely harmonize our activities with our colleagues at 
State, at United States Agency for International Development 
(USAID), and other agencies of our government. Our service 
components continue to mature. Our offices of security 
cooperation, defense attaches, and network of forward-operating 
sites and cooperative security locations, including Camp 
Lemonier in Djibouti, are tremendously valuable as we pursue 
U.S. security interests.
    It is my honor to serve with the uniformed men and women as 
well as those civilians who comprise the United States Africa 
Command. We are making a difference in this vitally significant 
and strategically important area of our global society. Their 
dedicated efforts exemplify the spirit and determination of the 
American people, and I would be pleased, with your permission, 
to introduce someone here with me today representing those men 
and women, the command senior enlisted leader, Command Sergeant 
Major Mark Ripka, who is here.
    What we do is important. We recognize the contributions of 
this committee. We thank you for your support, and I look 
forward to taking any additional questions to provide you any 
additional information that I can with respect to our command.
    Thank you very much.
    [The prepared statement of General Ward can be found in the 
Appendix on page 107.]
    The Chairman. General Ward, thank you.
    General Mattis, welcome, sir.

STATEMENT OF GEN. JAMES N. MATTIS, USMC, COMMANDER, U.S. JOINT 
                         FORCES COMMAND

     General Mattis. Thank you, Chairman Skelton, Ranking 
Member McKeon, and members of the committee. I appreciate the 
opportunity to testify. And, sir, I request my written 
statement be placed into the record.
    The Chairman. Without objection, the written statements of 
each of the witnesses will be placed in the record.
    General Mattis. Thank you, sir. And I wish to echo my 
shipmates' respect of Erin's service and quiet support of our 
military forces over many, many years.
    You will be missed. You have been magnificent, Erin.
    Over the course of the past year, Joint Forces Command has 
continued to provide combat-ready forces to the combatant 
commanders to support active military operations. We have 
continued to prepare for future conflict by thinking ahead so, 
if surprised, we have the fewest regrets. And after a historic 
change of command in NATO in which I handed over supreme 
command of allied command transformation, we continue to ensure 
Joint Forces Command remains closely linked with our allied 
partners in NATO.
    The character of this current conflict remains different 
or, better said, irregular. We have continued to adapt our 
forces in stride to become increasingly competent in irregular 
warfare. Across the board, the joint forces significantly 
adapted to this new environment, but our watch board must be 
balanced.
    The chairman and Secretary of Defense have stated we must 
not lose our nuclear deterrence, our conventional superiority 
in the process of adapting to irregular warfare. Even as we 
continue to prepare and deploy forces into the irregular fights 
of Iraq and Afghanistan, we cannot permit the dormancy of our 
conventional capabilities.
    Our forces will continue to achieve balance as dwell times 
build. Through effective training and education across the 
force, we can strike the appropriate balance while ensuring our 
current and future combat readiness. Based on the reality of 
current active operations and future trends outlined in our 
recent assessment of the joint operating environment, Joint 
Forces Command's top priority continues to reflect balance 
between support for the current fight and our constant 
assessment of the future to ensure we remain the most capable 
military in the world.
    Thank you, sir.
    [The prepared statement of General Mattis can be found in 
the Appendix on page 157.]
    The Chairman. Thank you so much, General.
    Let me ask a few questions, if I may.
    Admiral, I made reference to Russia as well as the ranking 
member did. Would you discuss for us what you see in Russia? Is 
it a rising Russia? Is it going back to its earlier status? 
What is your opinion of that country and where it is headed?
    Admiral Stavridis. Mr. Chairman, as I look at Russia and 
the way the impact of Russia is felt in the European landscape, 
the view is varied. The view varies from the Baltics and the 
Eastern European states who remain concerned about Russian 
activities that range from Zapad exercises to the residual 
effect of the activities involving Georgia. All of that raises 
a certain level of concern in that part of Europe.
    On the other hand, in Western Europe, there is a very 
strong attempt to try and find zones of cooperation with 
Russia. And so the view of Russia varies across the European 
theater.
    My own view--and I think the Secretary General of NATO has 
expressed this well--is that we need to find areas of 
cooperation with Russia wherever we can. And they can vary from 
arms control in a bilateral sense to counter-piracy, counter-
narcotics, cooperation in Afghanistan is possible.
    We can have discussions about military reform. As you know, 
the Russians are in the process of doing a fair amount of 
military reform, including a significant reduction in their 
officer corps and raising the professionalism of their non-
commissioned officers (NCOs).
    On the other hand, we need to find and demonstrate to our 
allies in the Baltics and in Eastern Europe reassurance; show 
them that we have contingency plans; that we have the ability 
to back up Article 5 of the NATO treaty.
    So I would conclude by saying it is really all about 
balance in approaching Russia. And we must maintain a sense of 
both reassurance with our allies but also find zones of 
cooperation as we move forward.
    The Chairman. What military-to-military operations do we 
have?
    Admiral Stavridis. In terms of operations at this point, we 
are not engaged in anything that I would describe as an actual 
operation, Mr. Chairman. But we are engaged in active dialogue 
with Russian counterparts. For example, I held meetings in 
Brussels recently with General Nikolai Makarov, the Chief of 
Defense (CHOD) of Russia. We are in a dialogue with them about 
exchanging noncommissioned officers and having a sense of 
showing them our training program and understanding what they 
are trying to do.
    We are also talking to them in general terms about their 
experiences in Afghanistan; trying it learn some lessons from 
all that. And, also, we are operating with them--and this is 
probably the closest we would come to an actual operation. 
There are Russian ships that are involved in counter-piracy 
operations alongside our ships, both on the U.S. side and on 
the NATO side, of the Horn of Africa. So that is a quick 
summary of where we are.
    The Chairman. Thank you.
    General Ward in your capacity, you, of course, have the 
service component commands working with you and for you. Is 
that correct?
    General Ward. That is correct, Chairman.
    The Chairman. Well, in particular, tell us what the Navy 
has been doing in the maritime security arena. And that has 
been of help in working with our African partners--the United 
States Navy?
    General Ward. Mr. Chairman, approximately two and a half 
years ago, in October of 2006, we conducted a maritime 
conference in Cotonou, Benin. It was--at that time, I was still 
the Deputy Commander at EUCOM, and we had the Commander of 
Naval Forces Europe with me. And we worked with the Chief of 
Defense there to find out from them what they needed to help 
them be in a better posture to protect their territorial waters 
from all the elicit trafficking things that had been going on.
    As a result of that conference, we have expanded into what 
we now call the Africa Partnership Station. It is a program. It 
is not the platform. It is a program. It is a training program 
that brings together the various nations of the littoral there 
in the continent of Africa. It started in the western part of 
the continent. As I have mentioned, it has expanded around to 
the entire continent now. But it includes our U.S. Marine 
Corps, Navy, other European partners, the Dutch, the Germans, 
the British, French, as staff members of this training 
platform. It also includes members from the African nations 
where this platform, as it circumnavigates the continent, will 
touch for two to three week periods of time, training these 
African nations on things that they see for themselves as 
important to increase their capacity to improve their security.
    It includes such things as small boat maintenance and 
repair. If you have a problem in your territorial waters, you 
have to have assets to deal with that. And so as simple a thing 
as keeping your boat motors operating, as keeping your 
electrical systems running are the sorts of things that we do 
with this platform.
    It includes professionalization of the noncommissioned 
officer corps. It includes other professionalism discipline 
sorts of drills that increase the capacity of these nations to 
bring their own security capacity to bear as they seek to 
protect their territory waters.
    It also includes how they work together in a linked way 
with respect to how they monitor and surveil their maritime 
areas. And so how they bring their surveillance systems into 
play is part of that dynamic.
    Training, in some cases, providing the equipment, that 
program is being led by the United States Navy, and it is under 
the auspices of my command, my component command, Naval Forces 
Africa, who now leads that program but with the involvement of 
the players of Europe, as I mentioned, the continental players, 
as I mentioned, but also other parts of the interagency in that 
attempt to help these countries increase their maritime safety 
and security.
    The Chairman. Thank you.
    General Mattis, let us talk about professional military 
education for a moment. Our colleague from Arkansas, Dr. 
Snyder, in his role as Chairman of the Oversight and 
Investigations Subcommittee, has delved into the professional 
military education at great length in a series of hearings.
    And I have a concern that--well, it is reflected pretty 
well in an article that retired General Bob Scales wrote 
entitled, ``Too Busy to Learn.'' And he compared what we are 
going through today, about putting off education for some 
people and some not even getting it, to what the British went 
through prior to the First World War.
    How do we correct that? You know, there is only so much 
time in a person's career. How do we do that? The promotion 
timelines are so tight that it is just hard it fit it all in. 
But if we are to be successful in the future years, it is 
important that we educate our officers at all levels.
    Do you have thoughts on that, General?
    General Mattis. I do. And thank you, Mr. Chairman.
    The only thing worse in a war than obsolete weapons is 
obsolete thinking. And you can get obsolete by thinking that 
the war you are fighting is what all wars are going to look 
like. There can be no doubt about the operational effectiveness 
of the U.S. military today. It is unmatched in the world.
    The problem is we are not worried about today in terms of 
your question. We are worried about tomorrow. I think that you 
point to a very specific problem of arithmetic. There is no 
more years in a career right now, so you have to squeeze it all 
in.
    And when you look at the service competency upon which 
officers create their own self-image, they test themselves, 
they develop their confidence based on their service 
capability, whether it be an infantryman in the Army or a ship 
driver in the Navy or a pilot, they have got to get good at 
their basic skills, their basic military skills.
    Then what do we do? I believe that we are going to 
eventually, in light of the better health of the force today 
where we don't drink or smoke like we once did, this sort of 
thing, that we need to look at extending officer careers. There 
should be certain restrictions on this. There should be 
continuation boards so we don't end up keeping the wrong people 
around.
    But you simply can't put in the amount of education and 
everything else that needs to be into an officer's career if we 
continue with the current 20- and 30-year expectations.
    I believe that the danger is real, and we are going to have 
to address it in more than just the manner in which we have in 
the past. In other words, distance learning, we are going to 
have to reward the kind of behavior that we want to keep. 
Institutions get the behavior they reward, yet we do not have 
sufficient rewards right now for those who, on their own, 
commit to an active learning throughout their career.
    So I think you need to change some of the reward systems. 
We are talking personnel policies here. And we also need to 
consider extending, as appropriate, not in all cases, the 
normal career to 30 and 40 years versus 20 and 30.
    I hope that addresses your question, sir.
    The Chairman. Thank you so much.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Admiral, while the current policy seeks to reset relations 
with Russia, I think we ought to take steps to reassure our 
allies and friends, as I said in my opening statement. And your 
posture statement notes that, without four brigade combat teams 
in Europe, deterrence and reassurance are at an increased risk.
    I talked about moving from 300 down to 80,000 and then if 
we took 2 brigade combat teams out, it would cut it in half 
again.
    Can you explain how reducing our force presence in Europe 
puts deterrence and reassurance at risk?
    Admiral Stavridis. Yes, sir. I think you have outlined the 
top two aspects of it very well, which are the physical 
presence of our troops is extremely reassuring on the one hand 
to the allies and friends about whom we spoke earlier. And I 
think there is a deterrent value in it.
    And so with that as backdrop, I would add three other 
things that I think are important to this four brigade combat 
team level presence in Europe.
    One is one we don't always focus on, but it is logistics. 
It is having that capability to move rapidly globally and, let 
us face it, our current set of missions are on the other side 
of Europe. And so that footprint in Europe is well supported. 
And those four brigade combat teams are all cycling forward 
into the fight in Afghanistan and Iraq.
    So I would add logistics. I would also add training. There 
is an extremely important training element in the building of 
partnership capacity with our allies. And with four brigade 
combat teams, the level, the complexity, the depth of training 
that can be conducted with allies is twice as good as with two 
brigade combat teams.
    So I think that is a second element I would add to the two 
you mentioned. And then thirdly, I would say there is really a 
leadership component for the United States. For us to maintain 
a leadership role, I think, that level of 80,000 troops in 
Europe is roughly about right, particularly, when you look at 
the steep decline it has gone through, as you pointed out 
earlier, sir.
    So I would sort of say reassurance, deterrence, logistics, 
leadership, and training as the five reasons that I would put 
forward the military advice to remain at the level of four 
brigade combat teams.
    Mr. McKeon. Thank you.
    There seems to be a debate brewing over U.S. nuclear forces 
in Europe. Your statement was notably silent on this issue. Do 
you think keeping these forces in Europe strengthens the 
alliance? Is our nuclear presence important to Article 5, the 
common defense provision?
    Admiral Stavridis. Sir, I have not taken a public stance on 
this because, as you can appreciate, it is very much in the 
political venue. I mean, this is an international dialogue that 
has to be conducted among the members of the alliance. I will 
say that the shared responsibility of these nuclear weapons 
creates a military-to-military level of trust and confidence 
that is extremely helpful, in my view, in maintaining the 
military-to-military aspects of NATO.
    I would also say that I would hope that any decisions that 
are taken are made multilaterally and that we do this as an 
alliance, not responding to this nation or that nation having a 
particular political issue, but rather we look at the whole 
question of nuclear weapons in the alliance as a whole.
    And I believe that is where Secretary General Rasmussen 
wants to take this dialogue.
    Mr. McKeon. Thank you.
    I understand that the recent Juniper Cobra exercise with 
Israel was a success. Given the growing crisis over Iran's 
nuclear program, what additional steps is EUCOM taking to 
ensure the defense of Israel and its stability in your AOR?
    Admiral Stavridis. Well, thank you, sir, for mentioning 
Juniper Cobra. We are extremely proud of that exercise. We had 
over 2,000 U.S. and allied forces involved in that. It was a 
very complex missile defense exercise that married up the 
Israeli systems, the Arrow and the Iron Dome system, with our 
own AEGIS sea-based system as well as some of our land-based 
systems.
    Very complex to bring all that together. Very effective. I 
would say that we need to build on that exercise and continue 
to have that level of dialogue and engagement and actual 
operational activities with our Israeli friends. And I believe 
that we can learn from them and we can learn from their 
technical systems just as they can marry up and learn from 
ours.
    So I would say build on that missile defense. I would say 
continue information and intelligence sharing. And I would 
say--I would support, obviously, the continued very strong 
military-to-military cooperation across the board that we enjoy 
with Israel today.
    Mr. McKeon. Thank you.
    I am concerned about the reset policy, particularly, the 
impact on our NATO allies. What are you hearing from our NATO 
allies on U.S.-Russian engagement? And what is the military, 
particularly EUCOM, doing to prepare in the event of another 
Russia-Georgia or similar conflict?
    Admiral Stavridis. From all of the allies, there is a real 
understanding that we have a need to train and be prepared for 
any kind of contingency in Europe. And so we are constantly, 
actively reviewing all of our contingency plans both on the 
NATO side and on the U.S. European Command side to be prepared 
for any security eventuality in Europe.
    That is an active dialogue, and it is sort of step-one 
planning. Step two is a very robust series of exercises both on 
the NATO side and on the U.S. European Command side. Example, 
this summer, we have what are called BALTOPS, Baltic 
Operations, which will bring both Marines afloat as well as 
ships at sea as well as Army operators ashore and special 
operators ashore to practice and exercise with our Baltic 
partners.
    We are going to do a special operations series of exercises 
this summer in the--in Eastern Europe as well. So exercises, I 
would say, are number two and equally important.
    And then third and finally, it is the sharing of 
information and training--the kind of international military 
education and training (IMET) program where we bring our 
partners here to the United States to train. We send our folks 
to train and be educated in their institutions. To the 
Chairman's point about education, that also creates a real bond 
among the allies at the officer-to-officer level and at the 
senior NCO level which is extremely, extremely helpful in 
maintaining the sense of reassurance amongst all of the allies.
    So I did put those three things at the top--planning, 
exercises, and shared education and training.
    Mr. McKeon. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman from California. We are 
under the five minute rule.
    Mr. Ortiz, please.
    Mr. Ortiz. Thank you, Mr. Chairman.
    And I would like to thank all three of you for appearing 
before our committee today, and thank you for your service.
    General Ward, I just have a few questions for you. In light 
of the horrific recent tragedies in Nigeria, does AFRICOM have 
enough troops to conduct training? And I know you have had some 
training exercises with countries that have requested support.
    And can you also speak to the training of African troops by 
AFRICOM? And I know that, in the beginning, you know, when we 
set the command, there were some questions about being accepted 
in the area where we had troops. How well are the African 
troops faring in actual operations? Can we conduct the 
performance reviews on the African training programs?
    And I know that all of this comes into play with the 
complex humanitarian emergencies that come about, but maybe you 
can give us a little input as to what is going on and the 
training and whether you have enough personnel to do something 
that does justice to them.
    General Ward. Thank you, Mr. Ortiz.
    First, you are correct. We have no assigned forces. We get 
our forces through the global force management process 
administered by the Department of Defense (DOD) here in D.C. as 
well as my friend, Jim Mattis' Joint Forces Command. And we 
submit, through a request-of-forces process, our requirements 
for forces.
    We are being--that requirement is being satisfied at about 
the 80 to 85 percent rate which is commensurate with what 
happens at the other combatant commands. It does affect us a 
bit because we don't have any assigned forces to complement 
that. But at the current time, we are looking at ways and the 
Department of Defense is also looking at ways to reestablish 
the global employment of the force priority structure such that 
the requirement for building partner capacity that you have 
addressed here is achieved--receives a higher priority in this 
whole process.
    But right now, that is how we do it. And for me, having 
assigned force is not necessarily the issue. What is important 
is that, when I have a demand for forces, those forces can be 
provided. Owning them is not important, but having them 
available is something that I think is very, very important.
    As we work with the African nations with our various 
exercises, we provided training support, logistics support, and 
they have participated in peacekeeping operations. We see that 
level of training and support being very, very instrumental to 
their level of performance.
    As a recent example of a training iteration that we 
conducted in Mali as we were working with the Malian armed 
forces as they conducted their counter-terror training. You may 
recall that, last summer, the Malians suffered some pretty 
substantial defeats on the part of Al Qaeda in the Islamic 
Maghreb. Part of the outcome of this most recent training 
happened in January from one of the members who participated 
who said, had I had that training prior to or had those who 
encountered that incident last July, had they had this 
training, the outcome would have been different.
    We think we are making a difference. The performance of 
these African nations indicates that our presence, our training 
with them makes a difference. And we certainly look to continue 
that because that is how we help safeguard our own populations. 
With their having increased capacities to do those things, to 
provide for their own security, it has a direct impact on the 
safety and security of our citizens and Africa but also in the 
transnational nature of today's threat environment also helping 
them do their part to counter those transnational threats.
    Mr. Ortiz. And I know that we do have some health threats, 
pandemics in the area. How are we addressing some of the health 
problems, the pandemics that we have in the area? Are we 
working jointly with them? Are we having doctors that help out 
as well?
    General Ward. Our efforts are part of the entire Department 
of Defense health assurance program. We work our pandemic plans 
with the African nations as well as, obviously, our European 
friends because we see the global connectivity of all of those 
things. We do work with them in their planning, their response.
    A part of my staff--my surgeon staff, my medical staff--are 
going and doing their engagement--our medical engagement, also, 
to help them address their own individual unique requirements 
and how they counter these threats from pandemics.
    The H1N1, they didn't have a problem with it. It was kind 
of in reverse how they tried to assure people that that didn't 
have an effect on them. And, obviously, the health threat that 
would emanate from the continent and would spread, likewise, 
keeping those in check.
    But other things as well from HIV-AIDS, malaria, robust 
program with all those issues of health are also security 
related if they are left unchecked.
    Mr. Ortiz. Again, thank you so much for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you. During the last break, I and 12 
other members of Congress, both the House and Senate, spent the 
better part of a week with several Russians in Madrid talking 
about U.S.-Russian relations.
    It was pretty obvious from the perspective of those 
Russians present that there are two major impediments to better 
relationships between the United States and Russia. One is 
NATO, and the other is our placement of anti-ballistic missile 
defenses.
    Sometimes, it helps to put yourself in the other guy's 
place. Suppose that the Cold War had gone differently and we 
had lost and NATO was gone and the Warsaw Pact was alive and 
growing, and the next two countries that were coming into the 
Warsaw Pact are Canada and Mexico. How would we feel?
    That is kind of the way that the Russians feel, I think, 
when the Baltic countries and the Ukraine might be coming into 
NATO. If we need a good will--European good will society, it 
probably ought to be called something other than NATO or Russia 
ought to be invited into NATO. One of those two solutions, I 
think, would be very preferable to what we are now doing.
    The other major impediment to better relations was our 
placement of the missile sites. I don't think there is any 
country that is going to launch over the pole except Russia, 
and our meager defenses there would be immediately swamped by 
Russia. They have thousands of weapons.
    These other people may be evil. They are not idiots. They 
are not going to launch from their soil. Are they going to 
launch from the ocean? They know if they launch from their 
soil, they will be almost immediately vaporized. They are not 
going to do that.
    If, in fact, you think we need these sites in the Arctic, 
why not put them in Russia? Russia has a lot of Arctic 
territory.
    As far as protecting Europe is concerned, we were going to 
place them in Poland and Czechoslovakia. If you look at the 
map, that leaves about half of Europe totally unprotected. You 
really need these missile sites to protect Europe from Iran, 
and Iran is not going to launch weapons from their soil.
    But if we really think you need that, what is wrong with 
the most extreme southwestern part of Russia? If you look at 
that site as a far better place to put missiles to protect 
Europe than where we are now planning to put them?
    Would you agree that these are the two major impediments to 
better relations with Russia?
    Admiral Stavridis. I would say that I have heard both of 
those discussions from my Russian interlocutors, and that 
Russia, as you know, sir, just recently issued a new strategic 
doctrine in which they talk about NATO expansion as a--they 
call it a danger to Russia. So I think it is absolutely correct 
to say that, from a Russian perspective, NATO expansion is of 
concern.
    Mr. Bartlett. Then, sir, why do we continue with this if we 
want better working relations with Russia?
    Admiral Stavridis. Well, NATO is an open organization. And 
if you look at Article 9 of the NATO treaty, sir, it says very 
simply that membership in NATO is open to any nation by a 
unanimous-consent vote of all the current nations in NATO.
    Mr. Bartlett. Have we invited Russia in?
    Admiral Stavridis. We, the United States, have not invited 
Russia into NATO, no, sir.
    Mr. Bartlett. Why would we not want Russia to be a part of 
NATO if we want better working relationships with them and 
better security on the continent?
    Admiral Stavridis. Well, I think that that question really 
is better posed to NATO rather than to the commander of U.S. 
European Command. But I know that the Secretary General of 
NATO, Secretary General Rasmussen, recently had a visit in 
Moscow and had a very wide-ranging discussion about all of 
these topics and is working very hard, along the lines of what 
you suggest, to place himself and to place the alliance in a 
position to look through the eyes of Russia so that we can find 
these kinds of zones of cooperation.
    So I think our hand is out from a NATO perspective. I have 
heard the secretary general say repeatedly our hand is out in 
cooperation. I think whether there is a follow-on along the 
lines you are discussing is something that all 28 NATO nations 
would have to discuss.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Before I call on Mr. Taylor, 
General Ward, you formerly were the deputy at European Command. 
Is that correct?
    General Ward. That is correct, Mr. Chairman.
    The Chairman. And your rank was four-star. Is that correct?
    General Ward. Correct, Mr. Chairman.
    The Chairman. You do not have a four-star deputy in your 
command. Is that correct?
    General Ward. None of the combatant commands have four-star 
deputies.
    The Chairman. That answers the question. Thank you very 
much.
    Mr. Taylor.
    Mr. Taylor. Mr. Chairman, I am going to yield to Mr. 
Kissell and take his place at the appropriate time.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, Mr. Taylor. The last time, Mr. Taylor was 
nice enough to yield to me like this, I said I would be glad to 
take his time if he would also yield some questions to me 
because Mr. Taylor asks some of the best questions that are 
ever asked on this panel.
    I welcome you gentlemen here today and thank you for your 
service and thank you for being here today.
    Admiral, we have talked quite a bit about the importance of 
NATO and our relationship with NATO. What is the mindset of 
NATO towards the organization--the European mindset. How 
committed are they? What do they see as the future for NATO? 
How do they view this alliance?
    Admiral Stavridis. Sir, I believe that broadly--and here I 
speak from polling data conducted in Europe--about 60 percent 
of most Europeans in Western Europe feel extremely positively 
toward the NATO alliance. And those numbers go up as you move 
toward the east. So that in the eastern part of Europe, we see 
numbers very high, as high as 70 percent, if you will, approval 
ratings for NATO.
    So from a public perception, I have that, broadly speaking, 
there is acceptance of NATO as a fundamental construct in the 
trans-Atlantic bridge.
    My own experiences talking to heads of state, ministers of 
defense, ministers of foreign affairs, chiefs of defense, the 
equivalent of our Chairman of the Joint Chiefs of Staff, 
certainly support that. I feel there is strong support for 
NATO, even as we are today engaged in a wide variety of 
activities. We have almost 90,000 NATO troops engaged on three 
different continents in operations all around the world. There 
are losses, but, overall, I believe there is a strong sense of 
support for NATO as an alliance moving forward.
    Mr. Kissell. Just curious in a specific country, Turkey. 
Reading last week about conflicts between a less secular part 
of Turkey versus the military. What do you see is the role of 
Turkey and how it might play out there?
    Admiral Stavridis. I believe Turkey is an extremely 
important state geopolitically. It is a hinge state between 
Europe and the Levant and South Asia and, indeed, the entire 
arc of the Islamic world. So the presence of Turkey in NATO is 
extremely important and I think is very helpful in maintaining 
an orientation of Turkey toward and with the West.
    Mr. Kissell. Okay. General Ward, we have had hearings 
recently about our relationship with China. What is the 
influence of China into the continent of Africa? How is that 
playing out? Pros and cons about what is taking place there?
    General Ward. Thank you, sir. China is pursuing its 
interest in Africa like other nations. It is working with many 
nations of the continent pursuing economic and developmental 
interests. Their--from what I can see, their military relations 
are not very robust. From time to time, you will note some 
engineering sorts of things going on with infrastructure 
development.
    It is the type of thing that, from my perspective, we 
clearly see how these sovereign nations reach out to other 
sovereign nations to help them achieve various national 
objectives that they may have. China is one of the countries 
that they reach out to. China responds in ways that satisfies 
requirements.
    What impact that will ultimately have, I am not prepared to 
address. The work that we do is work that we hope that, where 
there are opportunities to cooperate from the standpoint of 
promoting security and stability, that that would clearly be an 
objective, also, of the Chinese and any other nation that is 
engaging on the continent with the sovereign nations of Africa 
as they move ahead and pursue those common objectives.
    That is how I see the current situation as it moves ahead 
there on the continent, sir.
    Mr. Kissell. Thank you, sir.
    And General Mattis, you had talked about, in your opening 
statement, about the thoughts in trying to envision the next 
war. And looking at that now and our mindset--where we are with 
the conflicts we have and the challenges we have--what would be 
an area--or what is the area that most concerns you that we are 
missing the most as we do move forward? What potentials are we 
missing?
    General Mattis. Sir, that is really the $64,000 question in 
my line of work, knowing that we will not get it exactly right, 
we just don't want to get it completely wrong. We look at what 
happened in our current operations. We look at South Lebanon in 
the second Lebanon war, and we look at Russia-Georgia, and we 
put together what we believe is a hybrid nature of threat that 
is coming at us, where it will not be all conventional or all 
irregular; it will be more of a blurred hybrid threat that we 
have to confront because the differences between types of 
warfare seem to be blurring.
    The enemy has found our weak area, and they are moving 
against us in those areas. They are a very learning, adaptive 
enemy.
    So the most important point we can make is that we not 
adopt a single preclusive view of war and we stay attuned to 
what Secretary Gates has called for with this balance because 
we could inadvertently actually incite an enemy to try us in an 
area that we decide to abrogate because we don't think it is 
very likely. It makes for a very difficult effort, but it is 
one that is primarily addressed through education and training 
that creates the kind of adroit officer that can move from one 
type threat to another without being caught flat-footed, sir.
    That is about the best answer I can give you with just a 
couple moments here.
    Mr. Kissell. Thank you, sir.
    Thank you, Mr. Taylor.
    And, thank you, Chairman. I yield back.
    The Chairman. Mr. Forbes, the gentleman from Virginia.
    Mr. Forbes. Thank you, Mr. Chairman.
    And gentlemen, let me echo what my colleagues have been 
saying in terms of our appreciation for your service and all 
that you do.
    And General Mattis, if I could follow up on some of your 
previous comments that you just made in response to Mr. 
Kissell's questions.
    As you know, our forces face an adversary that does tend to 
avoid our strengths and exploit our weaknesses and remains 
quickly adaptable to the changing engagement environment. To 
train our soldiers in our conventional manner is expensive and 
time consuming.
    I am just wondering if you could share with the committee 
how we can use modeling and simulation to help train our 
forces. And what do you believe the resulting benefits would 
be?
    General Mattis. Thank you, Mr. Forbes. This is an area of 
some great focus to me. And if we would go back to the 
Chairman's opening remarks about the need for superior 
individual and small-unit capabilities being the most critical, 
most effective weapons today, we are going to have to have the 
ground forces adopt an aviation and a maritime view with the 
use of modeling and simulation.
    The aviators and the maritime forces have used them from 
the Idaho desert where they have the reactors for the Navy to 
the simulators on every single airbase for our aviators. We 
just had signed 48 hours ago by the Deputy Secretary of Defense 
a decision to create a line of funding that will permit us to 
take advantage of the gaming industry's advances, and we will 
try to put our young troops, our infantry, the ones who take--
over 80 percent of our casualties since 1945 have been 
infantrymen--we are going to try to bring to them a level of 
simulation and modeled training that will put them through as 
many technical and ethical challenges as we can before they go 
into their first firefight and during every dwell time after 
that.
    This is, to me, a fundamental area. It is both a military 
effectiveness area of opportunity, and it is an ethical burden 
that we need to take on right now.
    Mr. Forbes. And, General, I have heard you speak before, 
but I was just wondering if you could elaborate on your 
thoughts about how that kind of modeling and simulation 
training could actually save of the lives of some of our 
infantrymen. And where do you see JFCOM in this role, and how 
are they positioned to, perhaps, assist or help with this?
    General Mattis. Yes, sir. JFCOM has a role because, today, 
we find jointness where the Army, Navy, Air Force, Marines, 
coalition forces are working together at increasingly lower 
levels. Where, at one time, you might have an Army division 
alongside a Marine division alongside an allied division. 
Today, we have Marine infantrymen with Army intelligence 
specialists serving alongside them inside an Army brigade with 
Air Force and Navy close-air support alongside a NATO ally that 
is closely off an enemy line of retreat.
    This means we can no longer leave simply to the services 
without support the ability to train the joint and coalition 
warfare at levels now that may involve NCOs receiving the same 
kind of training that you and I have characterized in the past 
for junior officers.
    So the Joint Forces Command role is one to bring this joint 
piece down to the lowest tactical level so joint intelligence 
capabilities are understood and used there, joint fires are 
used to mitigate danger, carry out the mission.
    Mr. Forbes. And specifically as it relates to casualties 
for our infantrymen, what role can modeling and simulation play 
in helping to ratchet up their experience level and, perhaps, 
reduce these casualties?
    General Mattis. Mr. Forbes, I have been in a lot of fights, 
and this isn't scientific, but I would say half the people--I 
am an infantry officer--half the casualties I have seen on our 
side were for silly, stupid reasons. And if we can put people 
through simulation--it is not so they know one way to take down 
an enemy stronghold but so they know five different ways to do 
it and they have already been through it so many times they 
know how not to make the mistake that can be made on a 
simulator. We will still have to do live-fire training.
    It won't give us a risk-free environment. But I am 
convinced, both ethically and casualties wise, we can reduce 
the missteps that we are taking on the battlefield and reduce 
them significantly.
    Mr. Forbes. Thank you, General.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    The Chairman. Thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. We appreciate your 
many, many years of service to our country.
    Admiral Stavridis, Mr. Kissell asked about Turkey. In the 
Arkansas River, we have the USS Razorback, which was a World 
War II era submarine. It is actually one of the submarines that 
you see in the row in Tokyo Harbor in 1945 at the surrender. It 
saw some action at the end of the war and then did some Cold 
War tours, but at some point, was donated to Turkey as part of 
our U.S.-Turkey alliance. It served the Turkish navy for quite 
a few years.
    And a few years ago, they donated it back to the city of 
North Little Rock as part of a museum. And so we actually have 
a submarine sitting in the Arkansas River. We had to lift it a 
little bit between some barges to get it up there.
    But it sits there. I think it is a symbol of the very, very 
strong relationship between Turkey and the United States. Would 
you amplify, please, on how important Turkey has been or is 
currently to our activities in both Iraq and Afghanistan?
    Admiral Stavridis. Yes, sir. I will be glad to.
    As the--first of all, as the only Islamic nation in NATO, 
Turkey has been extremely helpful in assisting all of the other 
nations in understanding the cultural morays that are so 
important as we go into these kinds of complex situations that 
General Mattis is talking about.
    Secondly, Turkey is a big, muscular country with a strong-
standing army and a very capable military. We have learned a 
great deal and have drawn on their active support, for example, 
the Turks today have 1,800 troops in Afghanistan doing 
exceptionally good work really across a wide spectrum of 
missions in the country.
    Thirdly, they are an absolutely vital link in the overall 
Article 5 defense of the alliance. They are a border state of 
NATO. The Combined Air Operations Center (CAOC), the air-
control station in the southeastern portion of the alliance is 
located in Ismir, Turkey. They link up with us extremely well.
    We have forward aircraft there. At every dimension, Turkey 
has been an extremely strong NATO partner. In terms of the U.S. 
aspects of this, the bilateral relationship, equally so. They 
have been very supportive. We are working with them on 
intelligence and information sharing along their borders 
working across that border with Iraq.
    My good friend, General Ray Odierno, has been very engaged 
in this. I count the chief of defense of Turkey, General Ikler 
Basbug, a close friend and interlocutor who gives me good 
advice on how we should be approaching and working in the 
Islamic world.
    So overall, an extremely important partner both to NATO and 
to the United States.
    Dr. Snyder. There also is a very strong relationship 
between Armenia and the people of Armenia and the American 
people. And as you know, on August 31st of last year, Turkey--
the leadership of Turkey and Armenia signed two protocols that 
they intend to be a pathway to normalization. And the 
protocols, as you know, are awaiting legislative approval in 
both countries.
    And we, as a Nation, certainly understand agreements, 
whether they are trade agreements or other agreements, awaiting 
approval by legislative bodies.
    Should both countries approve those protocols, how 
important a step do you think that will be forward for Europe?
    Admiral Stavridis. I think it would be an extremely 
important step. There are several of these so-called frozen 
conflicts in Europe. And this is one of them. And a step 
forward between those two nations, I think, would also serve as 
a very good example as other types of these issues are worked 
through, for example, in the Balkans.
    My grandparents were born in Turkey. They were of Greek 
descent and immigrated here to the United States. It is an 
extremely complex region of the world.
    And whenever these nations can find common ground and move 
beyond the disputes and the anger and the warfare of the past, 
that is an extremely salutary step, really, for all of Europe 
but certainly nations involved.
    Dr. Snyder. And we wish both nations well as they grapple 
with that issue.
    Admiral Stavridis. Yes, sir.
    Dr. Snyder. General Mattis, you specifically mentioned in 
your opening statement in response to the Chairman's question 
talked about PME. I was at Quantico a week ago or so, and we 
wanted to have a discussion about enlisted PME. And one of the 
topics that was brought up there by the leadership there was 
the fact that, at the enlisted level--while we do a lot in the 
Marine Corps and the military for enlisted PME--when you take a 
30-year enlisted person and look at their career, how much time 
they have been given during their career to actually go to 
college, it is dramatically lower than the officers.
    And the feeling was that is something that we need to look 
at. I just have a few seconds left, but if any of you had any 
comment about that issue of should we be revisiting the issue 
of enlisted people and where time off to go to college. Because 
a lot of them go to college, but it is on their own time at 
night.
    Any comments?
    General Mattis. As you know, sir, the Congress has given us 
money to defray the tuition costs for our NCOs going. And they 
have taken great advantage. We have a quality of enlisted force 
today that is eager to learn very broadly and, of course, their 
own skills.
    A point I would make is one of the great strengths of the 
American forces is its NCOs--noncommissioned officers--and 
petty officers. Much of what we call ``sergeant's work'' or 
``chief's work'' cannot really be taught in a college or 
university.
    So we need to make sure that we separate out the natural 
quest of almost all of these young Americans to improve 
themselves and educate further versus the military requirement 
which may require more extended military schooling at a level 
that we usually associate with junior officers vice putting 
them through college which may or may not actually make them 
better NCOs.
    But the need for the education is absolute. It is just 
making certain we do it in a focused way so we stay at the top 
of our game, sir.
    The Chairman. Thank the gentleman.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and for being here.
    Just a quick comment, General Mattis. I was very pleased to 
hear your comments about modeling simulation response to Mr. 
Forbes' questions on the one hand. On the other hand, it is 
almost appalling that we have reached this 2010 and we are not 
further along. I know the services--and certainly the Marine 
Corps because I was involved in it going back 16 years or more 
ago--was recognizing that need for modeling simulation.
    So I hope we will move out aggressively to take advantage 
of that technology.
    General Ward, it is always great to see you. I sometimes 
flash back those many years ago when we were colonels and 
commanding soldiers and Marines in Somalia. And I want to get 
to that country in just a second.
    But I was looking at some headlines here in the last week 
from the British Broadcasting Corporation (BBC) and others: 
Hundreds dead in Nigeria attack; Mauritania vows no 
negotiations or prisoner exchanges with Al Qaeda; tear gas 
fired at Togo protestors; Sudan army says it now controls 
strategic Darfur plateau; twin blasts hit Rwanda's capital; 
Canada lists Somalia Shabab as a terrorist group; France claims 
biggest haul of pirates off Somalia; Libya calls in U.S. oil 
firms over Gathafi jibe; and so forth.
    You have got a mess and very few forces. Let us go to 
Somalia, if we can, to help me and us understand how AFRICOM 
works to address these issues. If you look at Somalia--and you 
know well what a mess it was 17 years or so ago when you and I 
were there. And you look at Al Shabab and you look at the 
headline that I just read. And today, in the New York Times, it 
says as much as half the food aid sent to Somalia is diverted 
from needy people to a web of corrupt contractors, radical 
Islamist militants, and local United Nations staff members.
    We could have read the same thing 16, 17 years ago. In 
fact, that is why you and I were there because food wasn't 
getting where it would supposed to go.
    So we have AFRICOM. And somehow, you have got to work with 
the interagency, with Special Operations Command, with African 
forces. Who is in charge? And how do you do that?
    I know that is a big question, but I know that we have been 
grappling since the standup of your command. How does that 
work? Is Special Operations Command in charge? Are you in 
charge? You know, is the ambassador in charge? Is there nobody 
in charge?
    Use Somalia as the example or pick any one you want to kind 
of tell us how that works.
    General Ward. Well, thank you for that, Mr. Kline. And, 
obviously, as you pointed out, that is a complex environment, 
and things have not changed.
    If you take the case of Somalia, obviously, with where we 
are and the transition federal government that is there and the 
fact that the African Union--which wasn't the case when we were 
there 17 years ago--there is a continent-wide organization that 
has said that we will do our best to help bring this transition 
federal government into a place where it can begin to exert 
some control over that vast territory.
    The problem in Somalia is the lack of a government. It is 
the lack of effective governance. But there are things being 
done to address that. Is it truly an international effort. It 
requires the support of the global community. And the response 
that the United States has in that endeavor is--and the things 
that we are doing to try to reinforce the work of this 
transition government, to reinforce the work of the African 
Union, its mission in Somalia, Amazon, as they have fielded 
peacekeeping forces, African peacekeeping forces who have 
familiarity, have understanding.
    Our training support, our logistical support, our support 
to the transition federal government forces to cause them to be 
in a better state to help deal with this lack of governance are 
the sorts of things that we are doing in support of this, I 
think, international effort to address the problems of lack of 
governance in Somalia. And doing what we do through our 
interagency process, coordinating our activities with the 
Department of State and where there are things that need----
    Mr. Kline. If I could interrupt, I am about to run out of 
time here, and I do really want to be respectful of that. But I 
am just struck again that this New York Times story is talking 
about a web of corrupt contractors, radical Islamic militants, 
and local United Nations staff members.
    And if the United Nations is, frankly, is as inept now as 
it was when you and I arrived there those many years ago where 
they were all holed up in a little corner of the Mogadishu 
Airport, I guess I would like to have the confidence--or I 
would like to have a feeling that, somehow, AFRICOM, now that 
you are in existence, is going to be able to exert, perhaps, 
more influence to help clear that up.
    And I have run out of time, and I know it was too big a 
subject. But it is worrisome to us that we don't--you don't 
have, perhaps, the organizational ability to step in there.
    I yield back, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just a couple of areas to follow up on some of what my 
colleagues had asked about and some from your opening 
statements.
    Admiral Stavridis, if you could talk to us a little bit 
about our NATO partners in Afghanistan now that we have been 
into our new strategy for a few months, making progress in some 
areas, obviously, long-term continued support across Europe is 
going to be critical and it is hard to come by.
    Certainly, the population has considerable concerns and the 
leadership is grappling with that. If you could just walk us 
through how you think that is going as someone who is got to 
perspective. Where are our European allies at in terms of their 
cooperation short term and long term on our plan in 
Afghanistan?
    Admiral Stavridis. Sir, I would be glad to. Big picture, 
U.S. has about--we are moving toward about 100,000 troops in 
Afghanistan. Our allies are about 40,000 troops. We have taken 
just over a thousand casualties. Our allies have taken about 
750 casualties.
    They are very much in the fight with us. I think it is 
worth mentioning as a passing aside, if you will, 75 percent of 
the casualties in Afghanistan are actually taken by Afghan 
security forces. But of that 25 percent, our allies are very 
much in this fight with us.
    In fact, the nation who has taken the most casualties on a 
per capita basis may surprise you. It is Estonia. Estonia, 
Great Britain, Canada, the Dutch, many of these nations have 
taken a great deal--have given a great deal of blood as well as 
treasure.
    At the moment, we are seeking to fill up to about a total 
of 10,000 allied troops coming in alongside the 30,000 that 
President Obama just sent forward. We have got about 9,500 of 
them committed, but we are concerned about the fact that the 
Dutch government, as you mentioned, appears to be taking their 
forces out of Afghanistan by the end of this year. So that is 
of concern.
    Mr. Smith. And what--how many troops do they have there 
now?
    Admiral Stavridis. They have about 1,700 troops there now. 
So that would set us back from filling up that goal of a total 
of 10,000. My particular focus at the moment is on trainers 
because the success strategy in Afghanistan will be training 
the Afghan security forces, and that is really where we have 
made significant progress and where our allies have been very, 
very helpful over the last seven or eight months.
    I need about 700 more NATO trainers, and we are working 
very hard going country by country to get that and to fill it 
up. So overall, we have a significant contribution from the 
allies. I would like to get a little bit more. We are working 
very hard to achieve that.
    The war is, in various places in Europe, it is less popular 
than the United States. And in other places, it is--I don't 
want to say more popular--but it enjoys a higher level of 
support even than it does here.
    So it really varies across the European continent. I would 
say, overall, the allies are very much in this with us. I think 
they are--they will be with us through the short term, and I 
would say as long as the U.S. is engaged, as long as NATO is 
engaged, I am confident, overall, they will stay with us.
    Mr. Smith. Thank you.
    General Ward, I don't have a lot of time left here, but I 
would want to ask quickly about the situation in North Africa, 
Al Qaeda in Islamic Maghreb (AQIM) in particular. You know, we 
are looking at, you know, future places that could be sort of 
the next Yemen, if you will, in terms of a place that rises up 
and becomes more of a problem than perhaps we expected, though 
I will say the DOD expected Yemen for some time. It is a bit of 
a misconception that we didn't see that coming.
    But in North Africa, in Mali and Mauritania, Al Qaeda (AQ) 
is very active and we simply don't have the resources there, 
certainly, than we have in Iraq and Afghanistan but even than 
we have watching Yemen and Somalia. What is your assessment of 
where that threat is at and what more we can do to be aware of 
what is happening? Because my great fear is there is a lot of, 
you know, vast open space out there that we know AQ is active. 
We don't have the type of intelligence, surveillance, 
reconnaissance (ISR) coverage or intelligence that we would 
like to know what is going on there.
    Could you give me your quick assessment of that region and 
what more we should be doing?
    General Ward. Thank you, Mr. Smith.
    That region that you are describing is the size of the 
continental United States. It is a vast region, and what we are 
doing, working with those nations--those are sovereign nations 
there. So our effort is focused on trying to give them 
additional capacity to help, in fact, have better control over 
those vast spaces.
    So we will work with Malians, Algerians, Burkina Faso, 
Niger, other nations in the Sahel so that they have increased 
capacity. The intel piece is a very great piece of that, sir. 
And so how we are able to have additional information that 
helps them understand better what the Al Qaeda in the Islamic 
Maghreb is doing will also be a part of their ability to then 
deal with that threat.
    Mr. Smith. Can you say a quick word about Mauritania? I 
know we have the--their critical there in the middle of this. 
We had the problem--they had the coup a few years back, broke 
off relations to a certain extent.
    What are we trying to do to deal with Mauritania's role in 
all of that?
    General Ward. Thankfully, in Mauritania, we are past the 
coup, and we are looking to increase our cooperation with the 
Mauritanians to work with them as well as other international 
players working with the Mauritanians to give them increased 
capacity to deal with the threat as well.
    And we are opening that again.
    Mr. Smith. Thank you. It is an area of particular interest 
to me and would like to be supportive as I can of your efforts 
there.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Before I call Mr. Coffman, 
Admiral, earlier, you mentioned a concern regarding the cyber 
world. Would you explain that, please?
    Admiral Stavridis. As I look at a world today in which 1 
billion devices are connecting to the Internet and I look at 
all of our vulnerabilities in U.S. European Command and also 
look at it from the perspective of a NATO commander with 28 
nations all of whom are very dependent on this cyber world, 
this cyber sea in which we sail, I am concerned that we are 
vulnerable from a military perspective; that we do not have the 
level of international cooperation that would create the norms, 
the systems of maintaining together how we navigate this cyber 
sea.
    And so I am an advocate of an international and an 
interagency approach, and I think the cyber world really needs 
to be a whole-of-government, whole-of-society approach. And so 
as I look at our vulnerabilities, I am seeking to improve those 
by working with interagency partners as well as international 
partners in the NATO context particularly with the NATO cyber 
center that we have established in Estonia as one example of 
that, Mr. Chairman.
    The Chairman. Thank the admiral.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, General Mattis, I first want to commend you 
in taking a look at going beyond this 20-year career path and 
looking at a longer career path. Having served as an infantry 
officer, too, only having one year as a rifle platoon commander 
in my first assignment, I mean, I think that we need to look at 
individuals being able to serve more time at different develops 
in their career path. And I think we are pushing people through 
faster than we ought to.
    But one question--first, a statement that I disagree with 
using nation building as a principle tool for achieving our 
foreign policy objectives, but I understand that is beyond the 
pay grade of--or beyond the Department of Defense to make that 
decision.
    But one question I have of you is, number one, has using 
our conventional forces and a heavy footprint for 
counterinsurgency purposes--how has that degraded our war 
fighting capability from a conventional standpoint? And 
prospectively, are there plans to use our--rely more heavily on 
special operations forces (SOF) to counter irregular threats, 
asymmetric threats and utilize our conventional forces to 
counter conventional threats going forward?
    Could you address that, please?
    General Mattis. Thank you, Mr. Coffman.
    On using our SOF more, we are using them right now to the 
absolute limit of capacity in a number of areas, not just the 
ones that make the newspapers every day. So between General 
Casey, General Conway, Admiral Olson who commands Special 
Operations Command, between the Army, Marine Corps, SOF, and 
Joint Forces Command, we are looking at those engagement 
efforts, counterinsurgent efforts, that require SOF only. We 
are building relationships and this sort of thing.
    If it is just teaching troops how to fight small-unit 
tactics, how to march, how to shoot, how to do first aid, those 
are things the general-purpose force can take off of the 
special forces so they are free to do only the things that they 
are best tuned for.
    So there is going to continue to be a need for our general-
purpose forces to be able to fight across the spectrum of 
combat. We cannot have forces that we basically put on the 
shelf and say we only use them in this kind of a fight. We try 
to bring all of them together. And I recognize there is some 
degradation right now, but we believe that, with the 
congressional build-up of the Army and the Marines that they 
have funded, and with the drawdown of about 10,000 fewer troops 
in the Central Command (CENTCOM) AOR in September of this year 
compared to September of a year ago, you will see dwell times 
extending. And that will allow the Chief of Staff of the Army, 
the Commandant of the Marine Corps, to get back to some of the 
more conventional aspects of war, which we have put on the back 
burner right now.
    We have Marines who have not been on board ship, although 
they have been in the Marine Corps for eight years. We have 
Army troops who have not coordinated large artillery fires in 
support of brigade maneuver. Dwell time will give us the chance 
to do that, sir, without segregating the general-purpose force 
out of irregular warfare.
    Mr. Coffman. Thank you, General Mattis.
    Admiral, I think you have four brigade combat teams organic 
to NATO or positioned in Europe. But my first assignment was in 
the United States Army mechanized infantry in Europe, and we 
did Reforger exercises every year--I don't know if those are 
still ongoing--where forces from continental United States 
(CONUS) would then go to Europe and we would kind of simulate 
being able to utilize them for a counterattack against, at that 
time, Warsaw Pact forces.
    Since we have that capability, can't we preposition those 
forces within the United States without compromising our 
commitment to NATO and simply utilize those forces on an 
ongoing operational basis by deploying them into Europe on a 
very temporary basis and then pulling them back but basing them 
inside the United States?
    Admiral Stavridis. You could examine a construct like that, 
and I recognize that any decision like this has political and 
economic elements that need to be worked out. There is a 
business case that is involved with all this, and I would refer 
that aspect of it to the Department of the Army which looks 
very closely at all this.
    My job is to provide my military advice as to what I think 
is best for the security and defense of the United States in 
Europe, and I have look at this very closely. And from my 
perspective, because of the things we talked about earlier--the 
reassurance, deterrence, leadership, logistics, training--I 
think four brigade combat teams in Europe is a good investment 
for the United States, sir.
    Mr. Coffman. Mr. Chairman, I yield back.
    The Chairman. Thank the gentleman.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Gentlemen, in reverse alphabetical order, if you don't 
mind, we will start with you, General Ward, in a minute and a 
half, what keeps you awake at night, if anything?
    General Ward. Sir, I am concerned about the potential that 
American lives will be lost because of what might generate and 
emanate from the continent of Africa. That is why our focus on 
the security capacity of those nations to secure their 
territorial borders, to secure their territorial waters is so 
important. Those threats could affect us wherever we may be in 
this globalized society.
    What goes on in Somalia, Sudan, Nigeria, what goes on in 
East Africa with respect to Al Qaeda, what goes on in Maghreb 
with respect to Al Qaeda in Islamic Maghreb--our programs are 
all designed to address those threats that are faced by 
Americans who live on the continent and also could have an 
effect on us here at home.
    Mr. Taylor. Thank you, sir.
    Admiral.
    Admiral Stavridis. Sir, I will be very brief. Afghanistan, 
through my NATO hat, is of extreme concern, and we are working 
that. And I would put that at the top of my list of things I 
worry about.
    I am concerned, also, about the Balkans, making sure we 
don't fall back into the situation we saw in the 1900s. As I 
mentioned to the chairman, I worry about cyber. I don't think 
we spend enough time looking and thinking at that.
    And then, lastly, I worry about Iran, about the growing 
threat of ballistic missiles, about the possibility of them 
acquiring a nuclear weapon, about state-sponsored terrorism.
    So those four things, sir.
    Mr. Taylor. General Mattis.
    General Mattis. Sir, mine are a mix of current and future 
concerns. First of all, the loss of precision dominance by our 
forces means that no longer do we have the ability to hit the 
enemy in ways they cannot reply in kind. Just think of Israel. 
Instead of under attack by ballistic-launched rockets, think if 
each one had a GPS transmitter or receiver on the front that 
can guide them precisely onto locations and what are we doing 
to make certain, if we deploy forces, they can protect 
themselves.
    Second is counter-improvised explosive device (IED). We 
need to get away from defensive measures and create 
technologically sustainable offensive ways to turn the IED on 
the enemy so we are no longer putting more armor or more 
jammers on ours.
    Mr. Taylor. General, can I interrupt? Do you see that 
technology anywhere? And is Congress missing the boat on 
acquiring it?
    General Mattis. Sir, it is not the Congress. There is 
enough money that you have given to Joint Improvised Explosive 
Device Defeat Organization (JIEDDO) and others. What we have is 
a technologically challenging effort, as a physicist put it to 
me, General, you are asking us to do something harder than 
going to the moon. That took us 10 years. You have been at war 
eight. We should be getting pretty close then.
    We have the money, sir. We need to organize the effort. But 
this one very much concerns me. This weapon is coming to a city 
near us very soon.
    A couple other things that keep me awake at night, sir, the 
quality of the troops joining the U.S. Army. The Army continues 
to do most of the fighting and most of the bleeding for this 
country. It is okay right now, but we all saw a concern about 
this a few years ago. And the all-volunteer force is unmatched, 
but we must maintain the quality of this force.
    I am also concerned in the long run about the financially 
unsustainable path that our national budget is on and whether 
or not we will be able to maintain the military forces when the 
only discretionary money you may have to play with, to address, 
to allocate, is at the Department of Defense. And what are the 
long-term implications of that?
    And last is the one that was just mentioned by my comrade 
here, and that is the cyber vulnerability.
    Mr. Taylor. Admiral, while I still have you, going back to 
your days in Southern Command (SOUTHCOM), are there any surface 
combatant missions off the coast of South and Latin America 
that cannot be handled by a Guided Missile Frigate (FFG) or a 
SLEP'd [Service Life Extension Program] FFG?
    Admiral Stavridis. Day-to-day, no. Everything can be 
handled by a frigate-sized vessel. I would only point out the 
Haiti experience that you and I remember both from the 
hurricanes and most recently from the earthquake, hospital 
ship, big-deck amphib for those extremely discreet individual 
high-end events.
    But other than that, those frigates do us very well down 
there, sir.
    Mr. Taylor. General Ward, on the counter-piracy mission off 
of Somalia, is there anything that could not be handled by a 
frigate?
    General Ward. To my best understanding, Congressman, there 
is not.
    Mr. Taylor. Okay. Thank you very much. And, again, thank 
you, all of you, for your tremendous service to our Nation. 
Thank you for being here today.
    Mr. Taylor [presiding]. The chair now recognizes the 
gentleman from South Carolina, Mr. Wilson, for five minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Generals and Admiral, I want to join with you. I agree 
with you about Erin Conaton, who has been confirmed to be the 
Under Secretary of the Air Force. Ms. Conaton has just been a--
I have seen firsthand a devoted person for our military and, of 
course, she was trained by Chairman Ike Skelton. So we know 
that she will be an excellent resource and supporter of our 
military. So I am grateful for that.
    And General Ward, of course, each year, I like to welcome 
you. I like to remind you that Charleston, my birthplace, would 
love to have you and AFRICOM to locate there. The Chamber of 
Commerce in Charleston has an open invitation for AFRICOM.
    And with that, I understand that Secretary Gates has stated 
that a move of AFRICOM's headquarters will not be considered 
until 2012. When this decision is made, what are the primary 
issues that are going to be considered? Particularly, I am 
interested in the quality of life for dependents, access to 
schools, medical facilities, transportation access, jobs.
    How would that be weighed in the decision?
    General Ward. Thank you, Mr. Wilson, and thank you for your 
invitation, again, as well, sir.
    The decision, when it is considered in 2012, has not been 
outlined at this point in time. However, to be sure, in any 
environment, the quality of line, the well-being of the serving 
members, be they uniformed or civilian, their family members 
will be a part of that dynamic, I am sure. To what degree it 
will take, again, I am--we are not at that point just yet.
    As you are aware, those are factors in determining where 
the headquarters are currently located from the standpoint of 
the enduring location that Stuttgart offers, the availability 
of those facilities. So I am sure they will be considered in 
that same light when this decision is revisited in a few years.
    Mr. Wilson. Well, anytime I see you, whether in the 
hallway, anywhere, do understand, we would love for you to 
relocate to Charleston, South Carolina. [Laughter.]
    And, Admiral, DOD-sponsored programs for spouses and 
dependents of service members are very important. What are you 
doing to ensure the dependents of members stationed within 
EUCOM are receiving the same benefits as those stationed within 
the continental United States? In particular, are education 
standards for schools-age children meeting these of their 
counterparts in the United States?
    What are the employment opportunities for spouses? And what 
measures are being taken to increase awareness of those?
    Admiral Stavridis. Thank you, sir.
    I do want to mention that my sister lives in Charleston and 
she lives in Mount Pleasant. She is a schoolteacher there. And 
she loves Charleston which brings me to teaching children and 
the quality of that over in Europe.
    And I am very pleased to report that the budget coming 
forward for which we are seeking the support of the Congress 
does, in fact, allocate a significant upgrade in the schools 
for our DOD children which I would argue is at the very top of 
the quality-of-life programs. Every parent--we all know this--
every parent, the first thing we ask as military members when 
we are moving, the very first thing is how are the schools.
    So we have gotten a good level of support in the budget in 
front of you, and we would sure ask for your support on that.
    We also, to your question of how do we focus on this, we 
hold a lot of conferences. In fact, right now, my senior 
enlisted is not with me because he is back in Europe 
spearheading my annual quality-of-life conference which I know 
all of the combatant commanders do. We really value that direct 
feedback from the families.
    That is our kind of input loop. And I must say, this 
Congress has been terrifically supportive of our dependents in 
Europe and, of course, Kip is actually my next-door neighbor in 
Europe. His headquarters, as you know, is currently there.
    We are very happy with the overall level of support, and we 
ask for the continuance of that from the Congress, sir.
    Mr. Wilson. And we appreciate your efforts.
    And, General Mattis, I want to thank you for raising the 
threat and danger of the budget irresponsibility that is going 
on here in Washington. I am also concerned, though, about the 
joint training events. Are they sufficient for our troops to be 
trained?
    General Mattis. Sir, I just want to correct one thing. I 
did not say anything about budget irresponsibility. I just--I 
am concerned about the sustainability of the budget.
    Mr. Wilson. Right.
    General Mattis. But as far as the training, sir, we have 
the dollars, and we have the means to train. Where we are 
challenged right now is primarily for chief of staff of the 
Army, Special Operations Command coming out of the Marine Corps 
is the dwell time. That is improving, as you know, but it is 
mostly a time constraint, not a physical plant or a dollar 
constraint.
    Thanks, I might add, to the support of this committee.
    Mr. Wilson. Thank you very much.
    Mr. Taylor. The chair recognizes the gentleman from 
Georgia, Mr. Johnson, for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    With the ice melting in the North Pole due to global 
warming which does open up new lanes for commercial activity, 
shipping in particular, and given the fact that abundant 
natural resources lie in that area--natural gas, coal, even 
oil--and given the fact that Russia has planted its flag on a 
disputed region of the intercontinental shelf, I would like to 
know what we are doing from a security standpoint to protect 
our commercial interests in that area.
    Admiral Stavridis. Thank you for the question, sir. It is 
an extremely interesting part of the world, as you allude to. 
There are actually three combatant commanders who have 
contiguous responsibility, and I am one of them. U.S. European 
Command, also, U.S. Northern Command from the northern part of 
Canada and then U.S. Pacific Command.
    So the three of us, together, look at these security issues 
in that region. Today, there are five nations that surround 
that North Pole where you are correct, there are shipping lanes 
that, I think, over the next decade will begin to open up. 
U.S., Russia, Canada, Denmark, and Norway are the five nations.
    There are two others, Sweden and Finland, who are also 
associate members of a group called the Arctic Council. This 
Arctic Council, sir, is the forum in which all of these 
issues--and it is really security but also navigation. It is 
the environment. It is scientific research. It is hydrocarbon 
recovery, as you mentioned. All of those issues come together 
in this Arctic Council which provides a forum for discussion.
    I think that is probably the right place for this 
discussion to be occurring. It is a cooperative, an active 
body. And that is the center of the security discussion at this 
time.
    Mr. Johnson. Okay. Well, let me ask you this question and 
follow up. There is a need for vessels that can accommodate the 
conditions--icy conditions--in that area. Do we have--are we 
properly equipped navally to be able to address any concerns 
that would occur up there?
    And, also, I wanted to know about the relationship, 
military-to-military, between China and Russia. And not just 
military-to-military, but even other ways that they may 
cooperate with each other.
    Admiral Stavridis. In terms of the ability of U.S. ships to 
operate in high-north conditions, I think we are reasonably 
capable in that regard. In terms of more specifics, I would be 
happy to take the question for the record and go to the 
commandant of the Coast Guard because we should remember a 
great deal of this ice-breaking capability is resident in the 
Coast Guard and to the Chief of Naval Operations who, I think, 
are better suited than I to address--and I will get you that.
    [The information referred to can be found in the Appendix 
on page 181.]
    Mr. Johnson. How many working seaworthy ice breakers do we 
have in this country?
    Admiral Stavridis. I don't know the answer to that. It is 
not in my purview or my remit as commander of U.S. European 
Command.
    Mr. Johnson. I appreciate you----
    Admiral Stavridis. I will be glad to find that data out for 
you and provide it for the record, sir.
    [The information referred to can be found in the Appendix 
on page 181.]
    Mr. Johnson. All right. Thank you.
    Admiral Stavridis. Yes, sir.
    Mr. Johnson. And with respect to the rest of the questions.
    Admiral Stavridis. To China--excuse me--China and Russia. 
As I survey the relationship between those two, I look at it, 
of course, from a Russian perspective because Russia is part of 
U.S. European Command's area of focus. I would say it is a 
relationship that has commercial, demographic, limited 
military-to-military cooperation, although they are both 
cooperating in the counter-piracy operation off the Horn of 
Africa.
    So I would say it is a relationship of both of the nations 
watching each other. They share one of the longest land borders 
in the world. But at this time, they are not in an extremely 
active geostrategic dialogue.
    Mr. Johnson. Thank you.
    And last question. How are AFRICOM and the U.S. military 
efforts in Africa perceived by Africans and by other foreign 
nations, General Ward?
    General Ward. The perception is increasingly favorable. It 
has been rising over the last two years, and they are 
continuing to increase in a most favorable way. Positive 
perceptions.
    Mr. Johnson. Thank you. Thank you, all three of you, for 
your work. Thank you.
    The Chairman [presiding]. Thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And General Mattis, I want to thank you. I read your 
article in Marine Times, March 1, 2010, ``Better Officer 
Training.'' And you called for an overhaul. I found that 
article very interesting, and I would hope that some of my 
colleagues would have a chance, maybe, to read the article and 
your recommendations. Thank you very much for that.
    Admiral, I want to ask you a question. I have got most of 
my questions for General Ward. But if you would, give me kind 
of a short answer.
    I remember back in 2003, 2004 many Generals--and I don't 
mean this disrespectfully--I mean, respectful. They would get 
questions about the Afghan security force, and they would say, 
well, the training is going well, we, you know, have got a lot 
to do, we have got years ahead, but it is going well.
    You know, the American people are frustrated, many in the 
military, particularly wives and some children are very 
frustrated. Do you see--I know this might be very difficult to 
project the future. That, I fully understand.
    But you know, I know the President said we are there 
another year and a half, but many of us are concerned that, as 
we get closer to that year and a half and another Presidential 
election, that some advisers--not necessarily military--might 
say, well, I don't think right now you need to pull down the 
troops in Afghanistan; we need--you know, we have got an 
election coming up. We have got to make sure that the people 
understand, you know, this and that.
    If you would, this is 2010, and I don't know who will be 
here--maybe I am running the gambit--maybe I will, maybe I 
won't.
    But two or three years down the road, if there is an 
admiral or a general that says that the training of the Afghan 
security force is going pretty well, how long should we say to 
the American people it is pretty well before we get to a point 
that we are financially broke as a country, we have worn out 
our military, we have worn out the equipment? I am not asking 
you for a timeline, but truthfully, do you see that maybe, in 
the short term, whatever the short term might be, that the 
Afghans can pick up it and take the responsibility?
    Admiral Stavridis. I will be very brief. I can talk for an 
hour and a half on that.
    Mr. Jones. I am sure.
    Admiral Stavridis. The short answer is, in the seven months 
that I have been in command and the eight months that Stan 
McChrystal has been in command, I think both of us would sit 
here and tell you honestly we have seen progress. And in 
January, February, and March of this year, we have seen 
everything from Afghans piloting MI-17 helicopters going on 
commando raids to them repulsing serious attacks inside the 
capital to the current operation in Marjah which is being 
conducted in a one-to-one ratio.
    So I can't speak to the four, five, six years ago, sir, but 
I can say that I think we are on a positive trajectory now. We 
have an outstanding three-star general who has unified command 
of all training for the first time, Lieutenant General Bill 
Caldwell. I would love to take you to Afghanistan and show you 
what is going on.
    It is hard. It is very challenging. There is great risk 
ahead. But I am seeing progress. And that is as short as I can 
be about it.
    Mr. Jones. Admiral, thank you. And maybe at some point in 
time in the future, I could ask you to come to my office and 
give me a briefing for an hour and a half if you want to.
    Admiral Stavridis. I would love to. I will do it.
    Mr. Jones. Really would appreciate that.
    General Ward, I want to pick up very briefly because time 
goes so quickly with five minutes. But the issue of China. You 
made a statement--and I accept your statement--that the Chinese 
are, as it results to their military, they are not very robust 
but in other ways, they are being very aggressive, I would 
assume.
    My concern is that--in your discussions with African 
leaders and other countries, do you feel that, at the present 
time, that the Chinese are trying to buy the hearts and souls 
of leaders by being able to be in a position of spending money, 
making investments in the infrastructure of certain countries? 
Do you feel that this is something that policy makers in 
Washington, not necessarily military people but policy makers 
need to be concerned about?
    General Ward. Thank you, Mr. Jones. I don't know if I am in 
a position to characterize Chinese actions in that way. I think 
what I would say is, as I see Chinese activities, as they 
attempt to secure the sorts of things that will help fuel their 
economic development, they are pursuing multiple lines and 
multiple channels to secure resources to have the type of 
impact in Africa that would be in keeping with them achieving 
whatever their national interests from the Chinese perspective 
may be.
    Mr. Jones. Mr. Chairman, thank you. I see my time is over. 
Thank you.
    The Chairman. Thank the gentleman.
    Mr. Sestak, please.
    Mr. Sestak. Thanks, Mr. Chairman.
    Good morning--good afternoon.
    Admiral, the Don't Ask, Don't Tell policy, is this a good 
thing we are doing to repeal it? And I have a couple of 
questions, so I am just going to try to get to them rapidly.
    Admiral Stavridis. I think that the Secretary of Defense 
and the Chairman have come forward and spoken to this, and they 
have put in place a process----
    Mr. Sestak. As an operational commander, do you agree with 
it?
    Admiral Stavridis. I agree with their process that they are 
undertaking.
    Mr. Sestak. Good. There was a program called the Arctic 
Military Environmental Cooperation (AMEC) Group where we 
focused with Norway and Russia on the SSBNs that were rotting 
away up there in--we have stepped away from that but never did 
the SSNs up there as at reactors are rocking away.
    Do you believe we should reengage on that effort? We 
stopped this about two, three years ago. What is your proposal?
    Admiral Stavridis. I will have to get back to you on that 
one. I don't have a set response for that.
    Mr. Sestak. It was called AMEC.
    Admiral Stavridis. Yes. We are looking at that type of 
issue, sir, in the Arctic Council which I spoke about a few 
moments ago.
    Mr. Sestak. Right.
    Admiral Stavridis. And that is--that, I think, is the right 
forum to address that, and I will get back to you with a more 
detailed answer.
    [The information referred to can be found in the Appendix 
on page 181.]
    Mr. Sestak. Thank you.
    Sir, I heard your response on AFRICOM. My understanding is, 
when we established this, we kind of pushed it a little 
harshly, potentially, without being a bit more ingratiating 
with South Africa. Is that an unfair statement after having sat 
down with them a bit and talked?
    General Ward. I am not aware of not being fair with South 
Africa, Mr. Sestak. That doesn't resonate with me. The South 
Africans had concerns, as did a few of the other nations, that 
it was being established to bring large military formations to 
militarize the continent. As we have seen, that didn't happen. 
The South Africans' response has been, certainly, less strident 
against the command.
    Mr. Sestak. We have a good bilateral Defense Department 
relationship with South Africa, particularly, in the 
environmental area. Is that part of your charge, also, as 
AFRICOM as part of this engagement that you are doing down 
there?
    General Ward. Not directly. Our engagement, military-to-
military, that is very robust. It is growing. Our naval 
relationships, our land relationships, our air relationships, 
the work between the component commanders of my command and 
their South African counterparts----
    Mr. Sestak. Mainly military-to-military?
    General Ward. Mainly military-to-military.
    Mr. Sestak. Wasn't your staff supposed to be two-thirds 
civilian, and so you were supposed to be a broader engagement 
than just military-to-military?
    General Ward. The staff is about half civilian. Of that 
half, a percentage of that is from the interagency. Not from 
the standpoint of doing the work of the interagency, from the 
standpoint of how the interagency work is more and better 
supported by what we do so we have a better understanding----
    Mr. Sestak. I understand now.
    General Ward. Correct.
    Mr. Sestak. General, the Commandant of the Marine Corps 
testified to a question a week or two ago that it would take 
us, because of our involvement in Iraq and now Afghanistan, 
upwards of 10 years before we get the U.S. Marine Corps back to 
where it is able to respond to the war plans.
    My question to him had been that for the last four years, 
we have done no training except--nothing on combined arms--just 
on counterinsurgency--and that the Army can't respond to any 
other war plan around this nation; was that the same for the 
Marine Corps?
    In your joint training area, would you say that is a 
correct assessment that our military is--in order to get back 
to the pre-Iraq days of readiness to respond to that is about 
10 years?
    General Mattis. Sir, I did not see the Commandant's--the 
context of how he was----
    Mr. Sestak. His exact words were ``about a decade.''
    General Mattis. Yes, sir. We have lost some of our edge 
that I believe that, thanks to the increased numbers of troops 
that you have authorized us and the drawdown in CENTCOM, is 
going to allow a graduated return to some of the things that 
have atrophied.
    Mr. Sestak. Would you think the time----
    General Mattis. I don't believe it will take 10 years----
    Mr. Sestak. All right.
    General Mattis. But I can't--I would have to study it a 
little bit and actually look at dwell times and training----
    Mr. Sestak. If you are able to with our commitment in 
Afghanistan, it would be great because I think that is one of--
you know, the national fabric of national security got changed 
by Iraq. I am not arguing good or bad right now, although I 
would argue bad.
    But I would be curious if you did.
    Admiral, one last question. And, first, for all three of 
you, thanks for your service.
    Advanced Electronic Guidance and Instrumentation System 
(AEGIS)--we have taken and plucked out from the Czech Republic 
and Poland what some would say was a stick in the eye of the 
bear and placed the same missile defense capability at sea in a 
way that protects us, some would argue, where we couldn't do 
before--Turkey and Israel more immediately but also can give us 
something in 2017 to more effectively defend our Nation here. 
Right step?
    Admiral Stavridis. Yes.
    Mr. Sestak. He always cuts me off because I am a sophomore. 
[Laughter.]
    The Chairman. Finish your question.
    Admiral Stavridis. I think the question was finished, and I 
agree. I think we need to--we need to move forward, and I have 
confidence in the AEGIS----
    Mr. Sestak. In terms of, also, of negotiating with Russia 
and----
    Admiral Stavridis. I think it is----
    Mr. Sestak [continuing]. Helping them pivot to Iran?
    Admiral Stavridis. Yes.
    Mr. Sestak. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Franks, wrap it up.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And, gentlemen, thank you for your lifetime commitment to 
freedom. We never are grateful enough to you.
    If it is okay, I wanted to take off on a point that Mr. 
Taylor makes often about what keeps you up at night.
    I have to suggest to you, even though my perspective is not 
nearly as relevant as your own, that what keeps me up at night 
is the potential of Iran gaining a nuclear capability. I know 
that has been talked about and touched on significantly here.
    But I think that we, perhaps, made an error--and I am sure 
that there will be disagreement on the panel here--relating to 
the European missile defense site. Most of you know that the 
phased adaptive approach--and when we were in the Bush 
Administration, these were things that were planned in general 
already. These are already kind of on the planning schedule.
    But I am concerned about the timing. You know, one of 
critiques of the former missile defense plan was that it was 
only expected to cover about 75 percent of our European allies 
by 2013. But how does the phased adaptive approach compare 
coverage wise by percentage of allies supported by that 
timeline? And what can we look to in the future?
    And, Admiral Stavridis, I will talk to you first about 
that.
    Admiral Stavridis. Sure. First of all, the answer to that 
is a technical one, and I would have to really direct you to 
the Missile Defense Agency. They are the people that kind of 
come with that, and they can give you a very detailed briefing 
on it.
    But as I mentioned to Representative Sestak a moment ago, I 
am confident in the ability to begin by using a sea-based 
system off of our AEGIS ships, and it will provide some initial 
coverage. And then the plan, without going into classified 
details, is to use some of those systems ashore.
    And I am confident that we will be able to transition that 
technology. As to the precise degree of coverage and when it 
walks in, there is a classified briefing that can take you 
through that in detail.
    Mr. Franks. Well, Admiral Stavridis, I appreciate your 
perspective. I will just suggest to you that there is at least 
a conclusion on the part of a lot of us that, even though no 
one supports the AEGIS system more than I do--I think it is a 
magnificent testimony of American technology and capability--it 
is the timing.
    My concern is that Iran, in all of their calculus of moving 
forward a nuclear weapons program, I think part of their 
concern is what would be the response of the Western world. I 
am not sure that they are really too shook up about our 
response at this point. I am thinking they are more concerned 
about Israel's response.
    But if we had had that capability to defend most of Europe 
in the timeframe that could have at least beat them to the 
punch, I think it might have played in their calculus. At this 
point, I don't think that we are going to be able to have much 
of a deterrence within the timeframe here.
    And I guess I illustrate that by--it seems that we have 
made a buy of eight SM-3 Block 1-B interceptors for this year, 
and how does that affect the timeline in the phased adaptive 
approach? I mean, what happens if the industrial base that is 
currently set to produce 48 interceptors cannot make up the 
difference after 2 years without any real substantive orders 
from the Department of Defense? I mean, you understand we are 
behind the eight ball here.
    Admiral Stavridis. Well, again, sir, I am not the right 
person to address the slip stream of missile moving forward, 
but I will take that question to the Missile Defense Agency, 
and I will make sure they come and give you a brief in-depth 
about that.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Franks. Okay. I certainly don't mean to badger you 
because I think you are doing your job in a magnificent way.
    General Mattis, I appreciate your soldier statesman 
diplomacy in clarifying that you were saying ``sustainability'' 
instead of ``irresponsibility.'' That is a word left to people 
like myself, and I think I would probably--if I were to use 
``irresponsibility,'' I would berate myself for understatement 
because I do think that the budget irresponsibility this 
administration has some pretty profound implications for our 
military readiness in the future.
    So with that in mind, if there were some area that you feel 
like we are maybe missing the boat on making sure that we are 
going to be ready for whatever contingencies come in the 
future, what area of the budget--and it is not fair to ask you, 
but I am sure your statesmanship will be in tact here too.
    What area of the budget would you be concerned about the 
most?
    General Mattis. Representative, looking at my crystal ball, 
which is about as good as anyone else's, we are facing an 
increasingly difficult problem gaining access around the world. 
And that access is being denied technologically, as we see a 
profusion of precision weaponry being passed around the world. 
We see it going to potential adversaries. It is political. All 
politics being local, there are places where large footprints 
of our troops ashore are not welcome.
    I think we are going to have to see an increased naval 
aspect to how we reassure our friends and temper potential 
adversaries' plans using our asymmetric strengths of sea 
control.
    Thank you.
    Mr. Franks. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. McKeon, any further questions?
    If not, the hearing comes to a close. We thank each one of 
you for being with us, for your excellent testimony. In a word, 
you make us proud.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 10, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 10, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8227.001
    
    [GRAPHIC] [TIFF OMITTED] T8227.002
    
    [GRAPHIC] [TIFF OMITTED] T8227.003
    
    [GRAPHIC] [TIFF OMITTED] T8227.004
    
    [GRAPHIC] [TIFF OMITTED] T8227.005
    
    [GRAPHIC] [TIFF OMITTED] T8227.006
    
    [GRAPHIC] [TIFF OMITTED] T8227.007
    
    [GRAPHIC] [TIFF OMITTED] T8227.008
    
    [GRAPHIC] [TIFF OMITTED] T8227.009
    
    [GRAPHIC] [TIFF OMITTED] T8227.010
    
    [GRAPHIC] [TIFF OMITTED] T8227.011
    
    [GRAPHIC] [TIFF OMITTED] T8227.012
    
    [GRAPHIC] [TIFF OMITTED] T8227.013
    
    [GRAPHIC] [TIFF OMITTED] T8227.014
    
    [GRAPHIC] [TIFF OMITTED] T8227.015
    
    [GRAPHIC] [TIFF OMITTED] T8227.016
    
    [GRAPHIC] [TIFF OMITTED] T8227.017
    
    [GRAPHIC] [TIFF OMITTED] T8227.018
    
    [GRAPHIC] [TIFF OMITTED] T8227.019
    
    [GRAPHIC] [TIFF OMITTED] T8227.020
    
    [GRAPHIC] [TIFF OMITTED] T8227.021
    
    [GRAPHIC] [TIFF OMITTED] T8227.022
    
    [GRAPHIC] [TIFF OMITTED] T8227.023
    
    [GRAPHIC] [TIFF OMITTED] T8227.024
    
    [GRAPHIC] [TIFF OMITTED] T8227.025
    
    [GRAPHIC] [TIFF OMITTED] T8227.026
    
    [GRAPHIC] [TIFF OMITTED] T8227.027
    
    [GRAPHIC] [TIFF OMITTED] T8227.028
    
    [GRAPHIC] [TIFF OMITTED] T8227.029
    
    [GRAPHIC] [TIFF OMITTED] T8227.030
    
    [GRAPHIC] [TIFF OMITTED] T8227.031
    
    [GRAPHIC] [TIFF OMITTED] T8227.032
    
    [GRAPHIC] [TIFF OMITTED] T8227.033
    
    [GRAPHIC] [TIFF OMITTED] T8227.034
    
    [GRAPHIC] [TIFF OMITTED] T8227.035
    
    [GRAPHIC] [TIFF OMITTED] T8227.036
    
    [GRAPHIC] [TIFF OMITTED] T8227.037
    
    [GRAPHIC] [TIFF OMITTED] T8227.038
    
    [GRAPHIC] [TIFF OMITTED] T8227.039
    
    [GRAPHIC] [TIFF OMITTED] T8227.040
    
    [GRAPHIC] [TIFF OMITTED] T8227.041
    
    [GRAPHIC] [TIFF OMITTED] T8227.042
    
    [GRAPHIC] [TIFF OMITTED] T8227.043
    
    [GRAPHIC] [TIFF OMITTED] T8227.044
    
    [GRAPHIC] [TIFF OMITTED] T8227.045
    
    [GRAPHIC] [TIFF OMITTED] T8227.046
    
    [GRAPHIC] [TIFF OMITTED] T8227.047
    
    [GRAPHIC] [TIFF OMITTED] T8227.048
    
    [GRAPHIC] [TIFF OMITTED] T8227.049
    
    [GRAPHIC] [TIFF OMITTED] T8227.050
    
    [GRAPHIC] [TIFF OMITTED] T8227.051
    
    [GRAPHIC] [TIFF OMITTED] T8227.052
    
    [GRAPHIC] [TIFF OMITTED] T8227.053
    
    [GRAPHIC] [TIFF OMITTED] T8227.054
    
    [GRAPHIC] [TIFF OMITTED] T8227.055
    
    [GRAPHIC] [TIFF OMITTED] T8227.056
    
    [GRAPHIC] [TIFF OMITTED] T8227.057
    
    [GRAPHIC] [TIFF OMITTED] T8227.058
    
    [GRAPHIC] [TIFF OMITTED] T8227.059
    
    [GRAPHIC] [TIFF OMITTED] T8227.060
    
    [GRAPHIC] [TIFF OMITTED] T8227.061
    
    [GRAPHIC] [TIFF OMITTED] T8227.062
    
    [GRAPHIC] [TIFF OMITTED] T8227.063
    
    [GRAPHIC] [TIFF OMITTED] T8227.064
    
    [GRAPHIC] [TIFF OMITTED] T8227.065
    
    [GRAPHIC] [TIFF OMITTED] T8227.066
    
    [GRAPHIC] [TIFF OMITTED] T8227.067
    
    [GRAPHIC] [TIFF OMITTED] T8227.068
    
    [GRAPHIC] [TIFF OMITTED] T8227.069
    
    [GRAPHIC] [TIFF OMITTED] T8227.070
    
    [GRAPHIC] [TIFF OMITTED] T8227.071
    
    [GRAPHIC] [TIFF OMITTED] T8227.072
    
    [GRAPHIC] [TIFF OMITTED] T8227.073
    
    [GRAPHIC] [TIFF OMITTED] T8227.074
    
    [GRAPHIC] [TIFF OMITTED] T8227.075
    
    [GRAPHIC] [TIFF OMITTED] T8227.076
    
    [GRAPHIC] [TIFF OMITTED] T8227.077
    
    [GRAPHIC] [TIFF OMITTED] T8227.078
    
    [GRAPHIC] [TIFF OMITTED] T8227.079
    
    [GRAPHIC] [TIFF OMITTED] T8227.080
    
    [GRAPHIC] [TIFF OMITTED] T8227.081
    
    [GRAPHIC] [TIFF OMITTED] T8227.082
    
    [GRAPHIC] [TIFF OMITTED] T8227.083
    
    [GRAPHIC] [TIFF OMITTED] T8227.084
    
    [GRAPHIC] [TIFF OMITTED] T8227.085
    
    [GRAPHIC] [TIFF OMITTED] T8227.086
    
    [GRAPHIC] [TIFF OMITTED] T8227.087
    
    [GRAPHIC] [TIFF OMITTED] T8227.088
    
    [GRAPHIC] [TIFF OMITTED] T8227.089
    
    [GRAPHIC] [TIFF OMITTED] T8227.090
    
    [GRAPHIC] [TIFF OMITTED] T8227.091
    
    [GRAPHIC] [TIFF OMITTED] T8227.092
    
    [GRAPHIC] [TIFF OMITTED] T8227.093
    
    [GRAPHIC] [TIFF OMITTED] T8227.094
    
    [GRAPHIC] [TIFF OMITTED] T8227.095
    
    [GRAPHIC] [TIFF OMITTED] T8227.096
    
    [GRAPHIC] [TIFF OMITTED] T8227.097
    
    [GRAPHIC] [TIFF OMITTED] T8227.098
    
    [GRAPHIC] [TIFF OMITTED] T8227.099
    
    [GRAPHIC] [TIFF OMITTED] T8227.100
    
    [GRAPHIC] [TIFF OMITTED] T8227.101
    
    [GRAPHIC] [TIFF OMITTED] T8227.102
    
    [GRAPHIC] [TIFF OMITTED] T8227.103
    
    [GRAPHIC] [TIFF OMITTED] T8227.104
    
    [GRAPHIC] [TIFF OMITTED] T8227.105
    
    [GRAPHIC] [TIFF OMITTED] T8227.106
    
    [GRAPHIC] [TIFF OMITTED] T8227.107
    
    [GRAPHIC] [TIFF OMITTED] T8227.108
    
    [GRAPHIC] [TIFF OMITTED] T8227.109
    
    [GRAPHIC] [TIFF OMITTED] T8227.110
    
    [GRAPHIC] [TIFF OMITTED] T8227.111
    
    [GRAPHIC] [TIFF OMITTED] T8227.112
    
    [GRAPHIC] [TIFF OMITTED] T8227.113
    
    [GRAPHIC] [TIFF OMITTED] T8227.114
    
    [GRAPHIC] [TIFF OMITTED] T8227.115
    
    [GRAPHIC] [TIFF OMITTED] T8227.116
    
    [GRAPHIC] [TIFF OMITTED] T8227.117
    
    [GRAPHIC] [TIFF OMITTED] T8227.118
    
    [GRAPHIC] [TIFF OMITTED] T8227.119
    
    [GRAPHIC] [TIFF OMITTED] T8227.120
    
    [GRAPHIC] [TIFF OMITTED] T8227.121
    
    [GRAPHIC] [TIFF OMITTED] T8227.122
    
    [GRAPHIC] [TIFF OMITTED] T8227.123
    
    [GRAPHIC] [TIFF OMITTED] T8227.124
    
    [GRAPHIC] [TIFF OMITTED] T8227.125
    
    [GRAPHIC] [TIFF OMITTED] T8227.126
    
    [GRAPHIC] [TIFF OMITTED] T8227.127
    
    [GRAPHIC] [TIFF OMITTED] T8227.128
    
    [GRAPHIC] [TIFF OMITTED] T8227.129
    
    [GRAPHIC] [TIFF OMITTED] T8227.130
    
    [GRAPHIC] [TIFF OMITTED] T8227.131
    
    [GRAPHIC] [TIFF OMITTED] T8227.132
    
    [GRAPHIC] [TIFF OMITTED] T8227.133
    
    [GRAPHIC] [TIFF OMITTED] T8227.134
    
    [GRAPHIC] [TIFF OMITTED] T8227.135
    
    [GRAPHIC] [TIFF OMITTED] T8227.136
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 10, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SESTAK

    Admiral Stavridis. BLUF: Re-engagement thru the Arctic Military 
Environmental Cooperation (AMEC) program would be prudent for the long 
term cooperation and protection of the Arctic. The more venues in which 
we can encourage dialogue and cooperation amongst the Arctic nations 
the better opportunities we have to develop peaceful and meaningful 
solutions to our challenges.
    Background:
    The AMEC program began as a Norwegian initiative to combine the 
efforts of the U.S., Norway, and Russia to address environmental 
problems in the arctic region associated with Russian nuclear submarine 
decommissioning. In a 1999 program plan to the Congress, DOD stated 
that AMEC projects would support the goals of the Cooperative Threat 
Reduction (CTR) program. However in GAO-04-924 the GAO found that 
``only one of eight AMEC projects designed to support CTR's objective 
of dismantling Russia's ballistic missile nuclear submarines'' had done 
so. ``Despite AMEC's limited contribution to the CTR, DOD officials, 
including CTR representatives, said that most of the projects can be 
used to support dismantlement of other types of Russian nuclear 
submarines''
    Jerry Havens, Distinguished Professor of chemical engineering and 
director of the Chemical Hazards Research Center and reviewer for the 
Technical Guidance Group of the AMEC program stated in 2004 that 
``nuclear submarines pose a transnational-boundary environmental threat 
primarily because of the highly radioactive spent fuel that remains in 
their nuclear reactors'' and that ``It is critical that the United 
States participate in the efforts to prevent further damage to the 
environment. It's not just Norway's problem or Russia's problem . . . 
eventually the pollutants released into the Barents Sea will wash up 
onto our own shores.'' [See page 34.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. JOHNSON

    Admiral Stavridis. Last year, Admiral Roughead, the Chief of Naval 
Operations, began studying the implications of climate change for the 
Naval services. That research is ongoing as there are many factors that 
must be analyzed. The U.S. Navy has no ice-hardened surface ships and 
all of its icebreakers were transferred to the Coast Guard in 1965. As 
such, the Coast Guard is the federal agency charged with operating the 
Nation's icebreaking fleet. Polar-capable icebreakers are unique 
national assets and the only USCG surface assets capable of projecting 
and fulfilling national objectives in the Arctic region year round. 
Therefore, I feel it prudent that the USCG maintain its current 
icebreakers in operational condition until such time as the Nation can 
determine the best mix of assets needed to meet national requirements. 
[See page 32.]
    Admiral Stavridis. Currently the Coast Guard has three polar-
capable icebreakers, although the USCGC POLAR STAR (WAGB-10) and USCGC 
POLAR SEA (WAGB-11) are the only two built to handle heavy ice. Both 
Polar-Class icebreakers are near the end of their service life. The 
third icebreaker, HEALY is a multi-mission, medium icebreaker that 
primarily supports Arctic science research; however, HEALY is not 
nearly as capable at breaking thick ice as our two Polar-class 
breakers. HEALY and POLAR SEA are operational. The Coast Guard is 
reactivating POLAR STAR from a caretaker status and it should be 
operational by the end of 2012. [See page 32.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
